<html>
<title> - GRAZING MANAGEMENT</title>
<body><pre>[Senate Hearing 108-87]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-87
 
                           GRAZING MANAGEMENT

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                 on the

                   ADMINISTRATION'S GRAZING PROGRAMS

                               __________

                             JUNE 25, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
88-917 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                     James P. Beirne, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel

                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                  CONRAD BURNS, Montana, Vice Chairmaa

GORDON SMITH, Oregon                 RON WYDEN, Oregon
JON KYL, Arizona                     DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
                                     DIANNE FEINSTEIN, California

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                         Dick Bouts, BLM Fellow
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     2
Rey, Mark, Under Secretary, Natural Resources and Environment, 
  Department of Agriculture......................................     8
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     3
Watson, Rebecca W., Assistant Secretary for Land and Minerals 
  Management, Department of the Interior.........................     4

                                APPENDIX

Responses to additional questions................................    27


                           GRAZING MANAGEMENT

                              ----------                              


                        WEDNESDAY, JUNE 25, 2003

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good afternoon, everyone. The Subcommitte on 
Public Lands and Forests will be in order.
    Today's oversight hearing on Federal land grazing programs 
is the first since this administration has come to office, and 
I am very pleased that I am joined by the chairman of the full 
committee, Senator Domenici. I will turn to him for a moment 
for his opening statement; and Senator Conrad Burns, on the 
panel.
    I also want to recognize and welcome Rebecca Watson, 
Assistant Secretary for Land and Minerals Management of the 
Department of the Interior; and Mark Rey, Under Secretary for 
Natural Resources and Environment at the Department of 
Agriculture--for those who are new to the committee--the U.S. 
Forest Service. That brings it into context, I think. Last 
month during Memorial Day recess, Senator Mike Crapo, my 
colleague in Idaho, and I hosted four grazing workshops in 
various communities across Idaho concerning livestock grazing 
on Forest Service and BLM-administered public lands. It was no 
great surprise how little we heard about grazing at these 
workshops. Instead, we heard about lawsuits; environmental 
impact statements; Endangered Species Act; bull trout; wolves; 
invasive weeds; crickets; and water, or lack thereof.
    Certainly ranching, in the 21st century, means far more 
than livestock grazing. Generations of families have made their 
homes and lived off the land since the mid-19th century. They 
depended on the land and the knowledge they had gained from the 
land to survive, a knowledge that only comes from living and 
working 
this resource for a lifetime, unlike the inside-the-beltway 
environmentalism that, in spite of what may be good intentions, 
has led to a ``leave it alone'' philosophy that, when imposed, 
actually, in my opinion, does more harm and wreaks more havoc 
on our public lands than well-managed lands, where grazing can 
and should be allowed.
    The modern ranchers have learned to understand the science 
behind what their own common sense has taught them about making 
the right decisions about rangeland health. They face new 
challenges and have learned to adapt to the changing demands 
that come from using public resources. Grazing has proven to be 
a valuable conservation and management tool in a number of 
ways.
    The first issue is the use of livestock grazing to reduce 
the risk of fire potential by reducing the fuel load on the 
land. Rangelands that are grazed are less likely to burn as 
frequently or with catastrophic intensity. Next, livestock 
grazing is an important tool for fighting the spread of 
invasive non-native weeds. Addressing this weed problem 
requires we work together at all levels of government through 
public and private partnerships to protect our land, our 
livelihood, and our environment.
    Ranchers are also making significant investments on Federal 
lands to sustain livestock that also provide improved wildlife 
habitat. The actual number of wildlife or game animals in my 
State has increased dramatically over the last 40 years, in 
large part because of water and water developments in a variety 
of areas produced by farmers and ranchers. Last, having a 
viable ranching industry has helped to prevent land 
fragmentation and development. In the West, developed lands 
rose from almost 20 million acres in 1970 to 42 million in 
2000. The protection of sustainable working ranches and a rural 
landscape has prevented a growing urbanization of important 
outdoor areas. Modern rangeland management has become a 
government-rancher partnership that has facilitated the 
maintenance and health of the land. Without the rancher's 
participation, the cost of Federal land management would 
increase dramatically. We need to continue to use this 
partnership to ensure the wise use and health of our public 
lands.
    Today, we will hear from the administration about the 
current status of their grazing programs and their progress on 
rangeland management. We are eager to hear about their plans, 
and to assist them where possible.
    Before I turn to our panelists today, let me first turn to 
the chairman of the full Committee on Energy and Natural 
Resources, Senator Pete Domenici of New Mexico.

       STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR 
                        FROM NEW MEXICO

    The Chairman. Thank you very much, Senator Craig. I want to 
compliment you on holding this subcommittee hearing. As many of 
you know, I have been very frustrated by the way the previous 
administration treated the farmers and ranchers who depended on 
public lands for grazing. Unfortunately, I am not completely 
happy with how this administration is fulfilling its 
responsibilities in this regard, either. I do understand that 
the Bureau is making notable progress in working through their 
backlog of permits and applications. That is a very sorry state 
of affairs; and while it is not all the responsibility of the 
Bureau of Land Management or Forest Service, clearly it is 
something that deserves attention, consistent with the 
dimension of the problem. It is a big problem. However, I 
remain concerned about the level of commitment within the 
Forest Service to solving the grazing issue.
    There seems to be some ambivalence within the Forest 
Service toward grazing that undermines the longstanding use of 
public range for livestock grazing. We continue to be in a 
situation in which Senator Craig and I have worked every year 
to address this situation in the Interior appropriations bill. 
I want to know, just how long are we going to have to continue 
doing that because the agencies have to get their act together? 
If there is something we must do to expedite that final date 
when we will be current with grazing applications, then we 
ought to know. I look forward to, if not being present for the 
hearings, to finding out the results in due course.
    Thank you, Mr. Chairman. It is good to be here with you and 
with the witnesses. Thanks to both of you for all you do on 
behalf of the Forest Service and our public domain.
    Senator Craig. Mr. Chairman, thank you. Thank you for your 
statement and for being here today, and for your leadership in 
this area. Now let me turn to Senator Conrad Burns.
    Senator Burns. Mr. Chairman, thank you for this hearing. I 
have no formal statement. I think we should hear from the 
witnesses and get an exchange going, because it is 2:30 in the 
afternoon. We want to cover some ground here today that I think 
is very important, so thank you very much for the opportunity.
    Senator Craig. Thank you. We have been joined by Senator 
Craig Thomas of Wyoming. Senator?
    Senator Thomas. Despite Senator Burns' comments, I'm going 
to make a short statement.
    Senator Burns. Really.
    Senator Craig. Please proceed.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Welcome to both of you. I know you work 
very hard at causing our land management to be done as well as 
possible. Of course, grazing is always a great concern. We look 
to long-range problems and so on. I am particularly interested 
in hearing from you about the conservation partnerships we 
talked about. These are BLM, I believe, reserve common 
allotments which seem to be somewhat of a controversy, 
voluntary allotment restructuring, and the conservation 
easements and the Endangered Species Act mitigation.
    I think these are all things we need to talk about. We have 
heard a little from our folks there that these ideas were 
thrown out, but there was not much interchange and discussion. 
We hear a lot and certainly favor the notion that there should 
be more local input into these things, so we want to seek to 
try and do that. I will stop, also, so we can get something 
going. Thank you for being here. I look forward to working with 
you.
    Senator Craig. Thank you very much. Before I turn to our 
witnesses, just a couple of figures that I asked staff to find. 
We have been able to produce some. I say that because of what 
always, to me, appears to be a solution to solving the grazing 
problem in the West, or on public lands. That is, you just 
reduce the numbers of livestock grazing. From 1953 to 2003--and 
this is a figure from the Bureau of Land Management--we have 
reduced the number of animal unit months, AUMs, in that 50-year 
period 110 percent on BLM lands.
    Now, we only have a figure from the Forest Service from 
1983 to 2003. That is only 20 years. But during that time, the 
number of AUMs reduced is 27 percent, and the number of 
allotments is 10 percent, so probably similar reductions spread 
across a similar time frame are also true of the U.S. Forest 
Service. A benchmark, a value? Yes, it is, in my opinion. The 
frequency of fire today, the phenomenal wildfire of weeds on 
our public lands today, it is in part the product of this 
example With that, let me stop there and first and foremost 
return to Rebecca Watson to make her opening statement.
    Thank you for joining us today, Madam Secretary.

 STATEMENT OF REBECCA W. WATSON, ASSISTANT SECRETARY FOR LAND 
      AND MINERALS MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Ms. Watson. Thank you. Good afternoon, Chairman Craig and 
Chairman Domenici, and members of the committee. I want to 
begin by stating that the Department of the Interior and the 
Bureau of Land Management believe that public-land grazing and 
the ranching community it helps to support is a keystone 
Western industry. We are committed to working with ranchers and 
the public to sustain public-land grazing in the 21st century. 
This reflects our common-sense recognition that healthy lands, 
strong communities, and thriving economies go hand-in-hand with 
working landscapes. My written testimony details the status of 
BLM grazing permit renewals, our sustaining working landscape 
initiative, monitoring and land health efforts.
    Today, I want to focus quickly on the sustaining working 
landscapes initiative. This initiative is in two parts. The 
first is a consideration of grazing rule changes. The second 
looks at policy changes that we believe we can make without 
rulemaking that will improve our ability to work cooperatively 
and voluntarily with the ranching community and other partners. 
I will talk first about the rule.
    On March 31, 2003, the BLM published a notice of proposed 
rulemaking and a notice of intent to prepare an environmental 
impact statement. The rulemaking and EIS sought comments and 
ideas from the public. We had some categories we wanted to 
address, but we sought more input from the public. We received 
substantial input. Questions we discussed in our rulemaking are 
extending voluntary, temporary nonuse of a permit from 3 to 5 
years; authorizing a new type of grazing unit, reserve common 
allotment; reinstituting an earlier provision that allowed the 
BLM and the permittees to share range improvements; and 
finally, improving the administrative appeals process for 
grazing.
    Once we prepare a proposed rule, we will once again go out 
for public comment on the proposed rule and on the draft of 
EIS. The BLM is also considering policy changes to complete and 
enhance these potential regulatory changes. As Senator Thomas 
brought out, there has been some concern in the grazing 
community about some of these proposals, but what we try to do 
here is think out of the box of past practices and look at 
where we are in the 21st century. The world in the West has 
changed dramatically.
    The population growth, the global economy, all those have 
put new stresses and strains on an already hard-pressed 
industry, so we tried to come up with tools that we could use 
to keep ranchers on the lands but address the stewardship 
concerns and wildlife and recreation concerns that the now-
large Western population holds. So the idea behind them is the 
same goal that we all share: How do we keep ranching on the 
land in the 21st century? So we came up with several tools--
conservation partnerships, reserve common allotments, and 
voluntary allotment restructuring--to allow the land to rest, 
but also with the view that the grazing could come back on 
again.
    That is the focus of the Taylor Grazing Act, and that is 
our guiding principle of working landscapes. We will have 
preliminary draft policy proposals shortly. Again, we will seek 
public comment. I agree that our public comment process was not 
as good as it could have been, but we wanted to come up with 
some proposals and then get the comments.
    Again, they were proposals and not any final policy. We are 
now going to work through our Resource Advisory Councils, put 
it out once again to public comment, and put it on our website 
to solicit reaction. As to both of these proposals, we have 
heard the public, and the proposed rule and any policy 
proposals will reflect comments that we have received from the 
public.
    I will just conclude again by reiterating that we are 
committed to the goal of sustaining working landscapes in our 
efforts, and permit renewals, monitoring, and regulatory and 
policy developments are all focused on that goal of working 
landscapes. Thank you. I look forward to your questions.
    [The prepared statement of Ms. Watson follows:]
Prepared Statement of Rebecca W. Watson, Assistant Secretary for Lands 
          and Minerals Management, Department of the Interior
    Thank you for the opportunity to present testimony describing the 
grazing program of the Bureau of Land Management--where we are now and 
where we are headed. The BLM is committed to working with those who 
work on the public land as we strive for economically productive and 
environmentally healthy rangelands.
    Today, the BLM manages grazing on more than 160 million acres of 
public land in the West. We administer over 18,000 grazing permits and 
leases and in 2002, eight million AUMs (animal unit months) were used.
    I would like to begin by describing the status of grazing permit 
renewals at the BLM, and our plan to stabilize the renewal process and 
make it more useful and timely. In addition, I want to share with you 
the progress we are making on our Sustaining Working Landscapes 
initiative that considers both grazing regulatory and policy changes. 
Finally, I will discuss the monitoring and land health efforts we are 
undertaking without which our initiatives cannot succeed As we improve 
the health of the land and promote the economic well-being of 
communities throughout the West, our aim throughout is to achieve the 
Secretary's goals of consultation, cooperation and communication all in 
the service of conservation.
                        grazing permit renewals
    By regulation, grazing leases and permits are typically issued for 
10-year periods. In most years, the BLM has 1,500 permits up for 
renewal. In 1999, the BLM experienced a spike in grazing permit 
renewals. Over 5,000 permits were due for renewal with an additional 
2,200 due in 2000. Additionally, the BLM was required to improve 
environmental documentation for processing grazing permit and lease 
renewals. The increased workload made it clear that the BLM would not 
meet the required deadlines for permit renewals.
    Congress took action to ensure that grazing permittees and lessees 
could continue to graze if the BLM was unable to complete the 
environmental analysis mandated by the National Environmental Policy 
Act (NEPA). Since 1999, a provision has been included each year in the 
Interior Appropriations bill that gives the BLM the authority to extend 
grazing permits and leases under their same terms and conditions until 
completion of NEPA compliance, Endangered Species Act (ESA), 
consultation and other legal requirements. We recognize that this is 
not the optimum situation. I would like to share with you what BLM is 
doing not only to address the permit renewal workload, but also to 
avoid recurrence of this problem.
    As the BLM began working its way through the permit spike workload, 
it became increasingly clear that simply doing ``business as usual'' 
was not going to provide a long-term solution to the problem. 
Therefore, the Bureau has placed an emphasis on renewing expiring 
grazing permits within priority watersheds with significant resource-
use conflicts or issues. Rather than rigidly adhering to a 
predetermined schedule of renewals, we want to group permits with 
common impacts, watersheds and land health standards. Not only does 
this provide a more even redistribution of future permit renewals over 
a full 10-year cycle, but it also affords more timely consultation 
completion with the Fish & Wildlife Service and/or the NOAA Fisheries. 
In addition, these measures will facilitate an effective review of land 
health standards on a watershed basis, allow for cumulative impact 
analysis, and focus restoration resources. In the long term, this will 
improve and streamline our processing of permit renewals.
    Of the 10,541 grazing permits that expired between fiscal year 1999 
and fiscal year 2002, 8,888 have been fully processed. The remaining 
1,653 are planned for completion by the close of 2005. By the end of 
2009, the BLM plans to have all permits fully processed in the year 
they expire.
    Our experience has shown that most NEPA documents needed for 
grazing permit renewals have been at the Environmental Assessment (EA) 
level, with very few requiring full Environmental Impact Statements 
(EISs). The overwhelming majority of fully processed permits have been 
issued with terms and conditions that are substantially unchanged from 
past practices.
    The BLM is strongly committed to meeting the goals I have outlined. 
Each BLM State Office has made very specific commitments for how it 
will comply. The BLM will continue to closely monitor the status of 
grazing permit and lease renewals and, as appropriate, will make 
adjustments to meet our goals. However, in any given year, a 
particularly difficult fire season (which may involve temporarily 
diverting some BLM personnel), and other factors, such as challenges to 
decisions through appeals and litigation, may test our ability to meet 
our planned timeframes. Nevertheless, we do not believe this will 
impede our ability to complete this process and we remain committed to 
meeting our goals.
   sustaining working landscapes regulatory and policy modifications
    Our challenge is to work cooperatively with our grazing permittees 
and the public toward a new conservation strategy premised on the 
Federal obligation to manage the lands for multiple uses. The 
assistance and support of those closest to the land, the permittees 
themselves, are vital to our success. Our goal is to create sustainable 
working landscapes that are economically sound and ecologically 
healthy.
    The rancher and the ranching family have played a key role in the 
history and development of the American West. Both are important to the 
economic vitality and quality of life of many communities throughout 
the West. The rancher increasingly plays an important role in 
protecting open space in areas of burgeoning population growth. 
Preserving the ranching lifestyle, not only for its own merits, but for 
the benefits that accrue to the land and nearby communities, is a goal 
of our Sustaining Working Landscapes initiative.
    The BLM is proceeding with a two-pronged approach: (1) 
consideration of regulatory modifications and, (2) policy changes that 
will improve our ability to work cooperatively and voluntarily with the 
ranching community and other partners. On March 3, 2003, the BLM 
published an Advance Notice of Proposed Rulemaking (ANPR) and a Notice 
of Intent (NOI) to prepare an Environmental Impact Statement (EIS) in 
the Federal Register regarding the BLM's grazing regulatory concepts. A 
60-day public comment period followed which included three public 
scoping meetings in the West and one in Washington, D.C. Over 7,500 
comments were received.
    The BLM is currently analyzing the comments we received. We expect 
that modifications, additions and deletions will be made to the 
proposals. We will again seek public comment on the proposed rule and 
draft EIS that are targeted for publication later this year.
    Among the concepts being considered as part of the rulemaking 
process are:

  <bullet> extending voluntary temporary non-use of a permit from the 
        current three-year limit to five years;
  <bullet> authorizing a new type of grazing unit called a ``Reserve 
        Common Allotment;"
  <bullet> reinstating an earlier provision to allow the BLM and 
        permittee to share title to range improvements such as fences, 
        wells and pipelines; and
  <bullet> modifying the administrative appeals process.

    The BLM is also considering policy changes to complement and 
enhance these potential regulatory changes. In order to seek public 
input on these policy ideas, on March 25, 2003, the BLM announced a 
series of grazing policy development workshops across the West and in 
Washington, D.C. In total, 24 workshops were held. Comments were 
received which are currently being reviewed as draft policy is being 
developed.
    Among the tools being considered to enhance citizen stewardship of 
the lands are:

          Conservation Partnerships--voluntary, performance-based 
        agreements to provide environmental services (e.g., riparian 
        restoration, improved wildlife/fisheries habitat, listed 
        species recovery) in exchange for possible incentives such as 
        stewardship grants, management flexibility, forage enhancement 
        and permit flexibility.
          Reserve Common Allotments (RCAs)--forage reserve areas that 
        allow permittees to engage in rangeland restoration by 
        temporarily shifting their livestock to forage reserve areas. 
        This rotation would promote range recovery through rest from 
        grazing without jeopardizing personal economic needs. Limited 
        RCAs could be established under existing regulations. However, 
        full implementation requires regulatory modifications.
          Voluntary Allotment Restructuring--voluntary mergers of two 
        or more allotments to increase management flexibility and 
        opportunities for conservation purposes. This gives non-grazing 
        organizations the opportunity to work cooperatively with 
        ranchers to develop partnerships to meet economic and 
        conservation goals.

    In the near future, the BLM plans to present preliminary draft 
policy proposals for public review. We will seek public input through 
our Resource Advisory Councils (RACs), general mailings and our 
Website. We want to ensure sufficient time and opportunity for 
meaningful public input and dialogue, and hope to complete this public 
process by the end of September. Following evaluation and 
modifications, our goal is to finalize the non-regulatory policy 
decisions by the end of November of this year. Throughout the process 
we will keep the Congress informed of our progress.
                 land health assessments and monitoring
    An understanding of what is going on out on the land is crucial to 
appropriate management of our public lands. Sustaining working 
landscapes, grazing permit renewals and an effective grazing program 
all rely heavily on good monitoring data. Without that basic 
information, our ability to make appropriate decisions, improve the 
health of the land, and meet our obligations to the multiple users of 
the public land is severely handicapped.
    Over the past 25 years, our whole understanding of how monitoring 
should be conducted, where it should be focused, and what it means has 
evolved. Science has changed the models for explaining and predicting 
changes in rangeland vegetation to a ``state and transition'' model. 
State and transition models define thresholds of change in vegetation 
and soils that, when crossed, become barriers to achieving healthy 
landscapes. For example, when a wildfire burns a sagebrush and 
perennial grass plant community that may then convert to cheatgrass, a 
threshold is crossed. Moving back across these thresholds can require 
expensive restoration efforts. Monitoring change in plant communities 
tells us when we are approaching one of these thresholds and allows us 
to make changes in management to avoid costly restoration efforts in 
the future. The ``State and Transition Model'' is more accurate than 
previous models and takes advantage of the most recent advances in our 
scientific understanding of soils, watersheds and vegetation.
    The focus of our monitoring has also changed. We have moved from 
monitoring individual allotments and individual programs to a 
coordinated, interdisciplinary look at resource conditions and changes 
on a watershed basis. Field offices can better analyze the cumulative 
and combined effects of various management activities. Our data 
collection efforts are concentrated on issues and resources directly 
linked to land health.
    Our efforts to improve monitoring have support from a wide range of 
users of the public lands. The ranching community, conservation groups 
and the academic community have joined with Federal agencies to form 
the Sustainable Rangelands Roundtable (SRR). This partnership will help 
us to promote consistency in monitoring and development of accurate 
indicators.
    The Departments of the Interior and Agriculture are chartering a 
joint interagency group to address assessment and monitoring issues at 
the local and national levels.
    We are currently working on a report, mandated by the FY 2002 
Interior Appropriations bill, Pub. Law 107-63, together with the 
Natural Resources Conservation Service, the Forest Service, and four 
other Department of the Interior agencies, to address the needs for 
completing soil surveys and ecological classification on rangelands 
within 10 years. In addition, the report will outline a plan for 
developing and implementing a national rangeland assessment tool.
                                drought
    Continued drought throughout much of the West is a variable that is 
threatening the livelihood of many ranchers. While we can, and do, seek 
to avoid surprises by working in advance with our permittees, short of 
divine intervention, there are no easy answers. Many of our regulatory 
and policy initiatives may help ameliorate the effects of the normal 
drought cycle, but severe, longer-term droughts (of the kind seen 
throughout much of the West in the last few years) are much harder to 
address.
    We are committed to working in advance with our permittees and 
other drought-affected partners, alerting them to potential permit 
modifications as we respond to inadequate forage and/or water. In all 
of these cases we work on a permit-by-permit basis at the local level 
with the ranchers. We do not seek to impose a one-size-fits-all 
solution, but rather seek an answer that is both right for the land and 
minimizes hardship to the public land users. Solutions include 
voluntarily reduced stocking levels, water hauling, new water 
developments and in some cases, temporary suspension of some or all 
livestock use.
    We continue to try to provide as much flexibility as possible in 
responding to drought conditions, but in many cases that flexibility no 
longer exists. Recovery can be a slow process and adequate moisture 
alone is not a cure. In some cases ``resting'' the land is the only 
answer.
                               conclusion
    The BLM is committed to the goal of sustaining working landscapes 
that are economically productive and environmentally healthy. Our 
efforts and changes for proposed permit renewal, monitoring, and 
regulations and policy are all developed with an eye toward that goal. 
Thank you for the opportunity to testify and I'll be happy to answer 
any questions you may have.

    Senator Craig. Rebecca, thank you very much. Now let me 
turn to Mark Rey, Secretary, Natural Resources and Environment, 
Department of Agriculture.

        STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL 
      RESOURCES AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Mr. Chairman, members of the subcommittee, thank 
you for the opportunity to present the subcommittee with an 
overview of the Forest Service grazing program. I have brought 
with me today Janette Kaiser, the Forest Service's Director of 
Forest Vegetation Management, and Dean Thompson, the natural 
range conservationist for the Natural Resources Conservation 
Service. I may call them up to the table to assist in answering 
your questions.
    The Forest Service has been managing rangelands for nearly 
10 years, and has a long history of partnerships with livestock 
producers who rely on National Forest System lands. In fact, 
grazing on Federal lands was one of the earliest resource 
debates at the turn of the last century. When the debate raged 
over whether livestock grazing would be banned from the then 
newly created forest reserves, Gifford Pinchot, the first chief 
of the Forest Service, argued that grazing should be allowed, 
rather than prohibited.
    Then, as now, that view was based on scientific range 
research first begun as early as 1897 by the Department of 
Agriculture in the Cascade Mountains of Oregon, in one of our 
first range laboratories. Today there are grazing allotments on 
nearly half of all National Forest System lands, approximately 
90 million acres of land in 33 States.
    The Forest Service administers approximately 8,800 
allotments which have over 9,500 livestock permits and about 
9.9 million animal unit months of grazing by cattle, horses, 
sheep, and goats. Nearly all of this permitted grazing is 
located in the Western States, with only about 1 percent 
occurring in our two eastern Forest Service regions.
    The Chairman. Mr. Chairman, may I stop the witness for just 
a moment?
    Senator Craig. Sure.
    The Chairman. I cannot stay but about 5 minutes. I wonder 
if I might interrupt the witness and inquire.
    Senator Craig. Please proceed.
    The Chairman. Mark, one of the problems that I raised in my 
very brief remarks is the issue of ranchers who cannot get 
their permits issued on time because of the long delays that--
and I understand, I am not saying the long delays that you 
impose, but rather, the long delays that are occurring because 
of the impact of environmental impact assessments which some of 
us have, within 2 years prior to carving these out, advised 
that the Bureau would never get caught up if they did this. It 
started in the Forest Service. They were doing it first. It is 
now prevalent. Before the regime got out, they got it in both 
departments.
    What is the real situation? I hear we are not making very 
much headway in terms of catching up. Does that mean that large 
numbers of ranchers are going to be using outdated permits that 
have an indication on them that they are temporary because of 
the situation, as we have mandated that you all do, or what is 
going on?
    Mr. Rey. What is going on is an attempt to address a 
problem that started in the mid-1990's that has expanded in 
scope and intensity faster than our efforts to address it. In 
the mid-1990's, as a result of court action, we were required 
to do new NEPA analyses under the National Environmental Policy 
Act at the time of the permit renewals.
    In 1995, Congress passed legislation as part of the fiscal 
year 1996 Interior appropriations bill to set up a schedule for 
staggering that compliance with the National Environmental 
Policy Act, with the idea that we would get it all completed by 
2010. There have been intervening lawsuits since that time that 
throw into question both the intent of the 1995 legislation 
congressional language as well as our basic capability of 
meeting that 2010 deadline.
    At present, we have probably about 1,500 to 1,600 permits 
that are at some risk because we are behind with regard to NEPA 
compliance. We can still meet the 2010 deadline as originally 
indicated if we either increase the amount of resources we 
devote to that, or we look for ways to streamline the 
procedures that we use to comply with NEPA.
    We would be happy to talk to the committee about either of 
those options. My preference would be to do some of both, 
because I think we are expending resources on relatively 
straightforward permit renewals where nothing is changing, 
where the money isn't buying us any on-the-ground investments.
    Back when Congress passed that legislation in 1995, you may 
recall I was on your side of the dais, and I can remember that 
we asked then Forest Service chief Jack Ward Thomas where we 
would be getting a good investment in on the ground by forcing 
that rapid level of NEPA analysis instead of doing other things 
in terms of range improvement or better monitoring programs.
    He was fairly forthright, and said that he thought on the 
ground results would be better if we did the latter rather than 
generating NEPA documents. That is something we would like to 
work on with you.
    The Chairman. What I would like to say--and I hope you will 
all agree--I think we have to do what makes common sense for 
the rancher. If, as a matter of fact, it is useless for us to 
put in extra money so we can catch up, we ought not to do it.
    But if catch-up is necessary for the average rancher to be 
left in a position where his assets are intact and he is not 
constantly questioned because of the nebulous nature of the 
permit, it would seem to me we must go to the administration 
and say to them, don't send us budgets that do not have enough 
money for us to get the work done.
    I myself would like this record to reflect what it would 
cost for a multi-year program that would catch us up, because I 
don't think I have seen it. I am not sure the chairman of the 
subcommittee has ever seen such a number. I am not sure the OMB 
has. They never do provide it, obviously. Whether they have 
been provided with it and then turn it down and give us less 
money than we need, I don't know the answer to that, either. 
But I think it would be good for us to know that. We could pass 
that along and know where we are.
    Mr. Rey. I think the unfortunate irony we find ourselves in 
today is that the result of what we are achieving is neither 
beneficial to the rancher nor beneficial to the rangeland 
ecosystems.
    We are spending too much money processing papers that 
aren't producing any different or better on-the-ground results, 
and that money could be better spent making range improvements, 
making habitat improvements, and doing on-the-ground work.
    It is not just a question of money, it is a question--as is 
the case in many instances--of how wisely we spend the money 
based upon procedural requirements we are bound to meet.
    The Chairman. I want to remind everyone here--all of you 
help me--my amendment was twice or three times on the floor, 
but it is such a simple process that hurts nobody to do the 
extension, and make sure that the extension does not jeopardize 
the nature of it, which is what we had to write into the law.
    That was such a big issue with the environmentalists that 
it was number two on their national issue for at least 2 years 
as something that we were using to destroy the public domain. 
Obviously, it is less than that now because it is nothing in 
terms of the impact on the public domain.
    It is just a matter of having to do something, call it an 
assessment or impact statement, that people are questioning all 
the time as to validity of it when it comes to the grazing 
leases. I wish you would recommend a fix with your good head. 
Maybe this is what we could do, is find a way to fix the whole 
problem.
    Maybe we could say we don't have to continue to do them on 
every lease, but rather on selective ones, one out of ten or 
something, and try that on and see if we could get something 
like that passed.
    Mr. Rey. Or, more simply, on lease renewals where something 
different is occurring, as opposed to lease renewals that are 
being renewed without change.
    The Chairman. Yes; or what are we going through it for? 
Thank you.
    Senator Craig. Mr. Chairman, thank you.
    Senator Burns. Do you want to complete your statement?
    Mr. Rey. I was just about done.
    Senator Craig. Complete your statement, and then we will go 
into additional questions.
    Mr. Rey. One of the things Senator Bennett from Utah has 
observed in the past is that we deal with great issues as well 
as great diversions. The great issue with regard to the use of 
our rangelands is fragmentation through conversion to other 
uses through development.
    Years ago, the national forests and grazing lands were 
buffeted by miles of rural landscapes, and that is not the case 
today. They are increasingly part of what we now call in the 
West ``wildland-urban interface.'' In the 2000 census, the five 
fastest-growing States were Idaho, Arizona, Colorado, Nevada, 
and Utah. Virtually all of that growth was occurring in the 
wildland/urban interface. Virtually all of that growth was 
occurring as a result of the conversion of privately-owned 
rangelands to subdivisions or to trophy homes.
    The real challenge before us today, it seems to me, is to 
embrace the remaining ranch lands as partners in slowing the 
rate of development of wildland/urban interface. Within the 
last 10 years, in the time period between the 1990 and the 2000 
censuses, 3.5 million acres of privately-owned ranch lands were 
subdivided. That in my view is the single most significant 
environmental concern that we face in large parts of the West. 
It is a concern that goes to water quality and water quantity 
debates, fire fighting costs, and a whole variety of land use 
decisions.
    Rather than there being ambivalence about what we must do 
with regard to the grazing issue, there is, I think, a sense of 
urgency, both in the Department of Agriculture and the 
Department of the Interior, that we must do what we can to 
retain privately owned ranches in ranch family hands. That is 
what we are focused on, both with the Forest Service and with 
the Natural Resources Conservation Service, through the 
prosecution of the grassland reserve and farmland protection 
programs in the 2002 farm bill.
    With that, the balance of my statement speaks to challenges 
in other areas of the grazing program. We can talk about those 
in response to your questions. I am finished.
    [The prepared statement of Mr. Rey follows:]
Prepared Statement of Mark Rey, Under Secretary, Natural Resources and 
                 Environment, Department of Agriculture
    Mr. Chairman and members of the subcommittee:
    Thank you for the opportunity to present the subcommittee with an 
overview of the Forest Service grazing management program.
    The Forest Service has been managing rangelands for nearly 100 
years, and has a long history of partnerships with livestock producers 
who rely upon National Forest System (NFS) lands. In fact, grazing on 
federal lands was one of the earliest resource debates in America. When 
the debate raged over whether livestock grazing would be banned from 
the Forest Reserves, Gifford Pinchot, the first Chief of the Forest 
Service, argued that grazing be controlled rather than prohibited.
    Then, as now, that view was based on scientific range research, 
first begun in 1897 by the Department of Agriculture in the Cascade 
Mountains of Oregon. The Forest Service began to implement the concept 
of a ``special tract permit system'' and began to collect fees in 1906 
that were intended to pay for administration of the permit system. By 
developing concepts such as carrying capacity and grazing systems 
involving deferral and rotation, these early range scientists and 
managers laid the foundation for sustainable resource use.
    Livestock grazing on National Forests reserved from the public 
domain is administered under a number of statutes, including the 
Granger-Thye Act of 1950, the Multiple-Use Sustained-Yield Act of 1960 
(MUSYA), the Forest and Rangeland Renewable Resources Planning Act of 
1974, and the Federal Land Policy and Management Act of 1976, among 
others. The MUSYA specifically provides, ``It is the policy of the 
Congress that the National Forests are established and shall be 
administered for outdoor recreation, range, timber, watershed, and 
wildlife and fish purposes.'' These laws augment the authority in the 
Organic Act of 1897, which established the Forest Service and directed 
the agency to regulate the use and occupancy of the forests to preserve 
them from destruction.
    Today, there are grazing allotments on nearly half of all National 
Forest System lands, approximately 90 million acres of land in 33 
states. The Forest Service administers approximately 8800 allotments, 
which have over 9500 livestock permits, about 9.9 million animal unit 
months of grazing by cattle, horses, sheep, and goats. Nearly all this 
permitted grazing is located in the Western states (99%), with only 
about one percent occurring in the Eastern forests.
                     trends in rangeland management
    Rangeland is an important component of ecosystem diversity at a 
national scale. Rangeland health is dependent on sustainable 
management. The Forest Service works with other land managers to ensure 
the rangeland is productive for current and future use. Invasions of 
exotic species, fire, drought, and overgrazing are examples of agents 
and processes that have occurred beyond their range of historic 
variation on U.S. rangelands during the past 150 years, and have helped 
to reduce the productivity of rangelands over time.
    One of the biggest threats to rangeland is fragmentation through 
land conversion. Years ago, the national forests and grasslands were 
buffered by miles of rural landscape and rangeland. Now they are 
increasingly part of the wildland/urban interface and development. The 
Forest Service believes this change has relevance for public lands 
policy in the future. We want to ensure our policies keep ranches and 
working forests in operation, to keep the land whole, in the best 
tradition of conservation.
    When properly managed, grasslands and shrublands can contribute to 
cleaner water supplies, healthy riparian areas and reduced sediment 
loadings in streams and other water bodies. These lands are vital for 
the production of forage for domestic livestock and provide forage and 
habitat for maintaining healthy wildlife populations. These lands also 
improve the aesthetic character of the landscape, provide scenic vistas 
and open spaces, provide for recreational activities, and protect the 
soil from water and wind erosion.
    To restore and protect rangeland and grasslands the Forest Service 
and the Natural Resources Conservation Service (NRCS) are working 
cooperatively to provide both financial and technical assistance to 
farmers and ranchers. Through the NRCS Grazing Lands Conservation 
Initiative (GLCI), owners of ranchland and pasture have developed 
grazing management plans for more than 80 million acres of grazing land 
since 1999.
    In addition to GLCI, the Department of Agriculture recently 
announced deployment of a new Grassland Reserve Program (GRP), 
authorized in the 2002 Farm Bill. Beginning June 30, the GRP will 
provide cost share and financial incentives to help landowners restore 
and protect grassland, rangeland, pastureland, shrubland and certain 
other lands. The program will conserve valuable grasslands by helping 
maintain viable ranching operations. GRP offers producers several 
enrollment options, including permanent easements, 30-year easements, 
rental agreements and restoration agreements. The Forest Service will 
have the ability to hold the conservation easement under this program.
                     grazing permit administration
    The National Environmental Policy Act (NEPA) and other 
environmental laws require the Forest Service to evaluate the 
environmental effects of livestock grazing on NFS land before 
authorizing this activity. Forest Service decisions in this area are 
subject to administrative appeals and judicial review.
    In 1995, approximately 1/2 of all Forest Service grazing permits 
were due to expire. The Forest Service faced a daunting challenge to 
complete the NEPA process on these grazing allotments before they 
expired. In order to prevent a major disruption to livestock grazing on 
National Forest System lands associated with the expiration of 
approximately 4,500 Forest Service grazing permits, Congress enacted 
Section 504 of Public Law 104-19 (the ``Rescissions Act'').
    Section 504 directed the Chief to identify grazing allotments that 
``needed'' NEPA analysis and to ``establish and adhere to'' a schedule 
for the completion of that analysis. In early 1996, the Forest Service 
identified 6,886 grazing allotments on National Forest System lands 
that needed NEPA analysis at that time and established a schedule to 
complete these analyses by 2010.
    By the end of 2002, the Forest Service has completed NEPA analyses 
on more than 2,300 of the 6,886 grazing allotments listed on the 
schedule, or just over one-third of the total required. Unfortunately, 
it is only about half of the 4,527 allotments that had been scheduled 
for completion during this time.
    In the 2003 Consolidated Appropriations Resolution, Public Law 108-
7 (as amended by the 2003 Emergency Wartime Supplemental Appropriations 
Act) Congress enacted Section 328, which directed the Secretary of 
Agriculture to renew grazing permits for those permittees whose permit 
expired prior to or during fiscal year 2003. NEPA analyses would still 
have to be completed on these allotments and the terms and conditions 
of the renewed grazing permit will remain in effect until such time as 
the analysis was completed.
    The Forest Service is continuing to complete NEPA analyses at the 
rate of 150 to 200 allotments per year for those grazing allotments on 
the 1996 schedule. We remain committed to completing this task without 
disrupting permitted livestock grazing activities, which consist of 
family-run operations, seventy-percent dependent on the use of NFS land 
for their livelihood.
                       streamlined permit process
    The current decision-making procedure to authorize livestock 
grazing or other activities on rangelands administered by the Forest 
Service is inflexible, unwieldy, time-consuming, and expensive. For 
several years, the Forest Service has evaluated alternative procedures 
that would satisfy our legal obligations, provide the agency with 
management flexibility, shorten the decision-making time, and reduce 
the cost to the taxpayer associated with rangeland management 
decisions. We believe that this can be accomplished without 
compromising the integrity of the decision-making process or the 
condition of the land. The objective of these new procedures will be to 
protect the public's natural resources and financial interests, while 
providing equitable treatment for permittees through adaptive 
management.
    Recently, we have begun discussions with our colleagues at BLM and 
the Council on Environmental Quality (CEQ) to discuss the challenges of 
complying with NEPA in a timely and effective manner. It has not been 
unusual for the Forest Service to take two or more years to complete 
the NEPA process for a single grazing allotment. This is unacceptable. 
We are considering a number of ideas and plan to develop 
recommendations for improvement by the end of the year. In this regard, 
we appreciate the April 7, 2003, letter from seven Senators, including 
Members of this distinguished Subcommittee, to CEQ regarding the issue 
of NEPA compliance for grazing permit renewals.''
    Additionally, the Forest Service is preparing a new chapter in the 
Forest Service Handbook on rangeland management decision-making.
                       drought--forage and water
    For the past 5 to 7 years, drought has persisted over much of the 
Western United States. At present, ``exceptional'' drought (the highest 
level) is centered on the panhandle of Utah, Southeast Idaho and 
Southwestern Wyoming. Radiating from this center, extreme to abnormally 
dry conditions exist within the Intermountain area, Southeast Oregon, 
the Southwest, the Rockies, and large portions of the Great Plains 
continuing down to the Gulf Coast.
    Predictions for this year call for more dry weather throughout most 
of the West. Although there has been some spring precipitation over 
wide areas, most of the West continues to have a significant water 
deficit. It will take a number of years of higher than average rainfall 
to recover from the drought. In 2002, significant reductions in grazing 
use on National Forest System lands occurred throughout the Interior 
West and the Western Great Plains. Although it is still too early to 
know the full effects of the drought, reductions in grazing use for 
2003 could equal those of last year.
    The Forest Service has actively coordinated drought management with 
Federal, State, and local government agencies and officials. The agency 
is actively participating on national, State, and local drought task 
forces coordinating drought relief to our permittees. We are working 
closely with industry representatives to provide up-front information 
about what we are doing and seeking input from them as to their needs.
    Locally, the Forest Service is managing drought impacts on a case-
by-case basis. District Rangers and Forest Supervisors are working hard 
to provide the greatest amount of flexibility to permittees when it 
comes to changes in their use or impacts to their operations. Local 
officials are communicating early in the process to ensure the 
permittee is informed and has enough time to implement temporary 
changes or a long-term strategy. The Agency is coordinating with 
universities and user groups to best address the concerns at the local 
level. The Forest Service will continue to do so until we return to 
more normal conditions.
    In this time of critical forage and feed shortage, the Department 
is sensitive to the livestock producers' needs while we work to ensure 
our actions are consistent with the purpose of good land stewardship. 
The Forest Service will continue to work with permittees, local groups 
and the State to develop drought management plans and identify 
restocking criteria where needed.
                               monitoring
    The ecological conditions of rangelands affect the social and 
economic stability of many rural communities. To assure these lands are 
capable of providing sustainable products for future generations the 
ecological condition of these lands are monitored to specific 
standards. Implementation and effectiveness monitoring are the two 
types of monitoring which the Agency uses. Implementation monitoring is 
an annual measurement of vegetation to assure permit compliance with 
written instructions for either the permittee, or the Forest Service, 
or both. Effectiveness monitoring is long-term (every 5-6 years) where 
vegetation is monitored to assess prescriptions and objectives set 
forth in Forest Plans, allotment management plans or other relevant 
documents. Effectiveness monitoring is the basis for determining what 
if any modifications to the grazing strategy are needed to provide 
ecosystem sustainability.
    On some National Forests there is an established program which 
encourages the grazing permittee to conduct much of the implementation 
monitoring. In some instances the permittee, working in conjunction 
with other Federal agencies, universities and rangeland consultants, 
have developed a successful, collaborative monitoring program.
    The Forest Service is currently working with industry 
representatives to develop a national Memorandum of Understanding that 
will improve our cooperative implementation and effectiveness 
monitoring. This is a great opportunity for both entities to 
collaborate on long-term goals and objectives for rangeland resources.
    Congress, in its FY 2003 House Interior Appropriations Report, 
asked the Secretary of the Interior and the Secretary of Agriculture to 
prepare a report on how they would address the long-term monitoring, 
ecological classification of vegetation and soil survey work which is 
needed to efficiently address rangeland conditions. The report should 
be available later this year.
    While there have been improvements in rangeland conditions on 
National Forest System lands since the Forest Service started 
regulating livestock grazing over 100 years ago we must continue to 
work collaboratively with our partners to restore and rehabilitate 
rangeland areas so they may be productive for current and future 
generations. Managing rangeland resources is an important task for the 
Forest Service, and we appreciate the Subcommittee's interest in this 
subject.
    coordination between the forest service and the bureau of land 
                    management and local communities
    Some National Forest System lands are intermingled with or adjacent 
to lands administered by the Bureau of Land Management (BLM). The 
Forest Service is working with the BLM on common resource issues 
including grazing use, to improve consistency and resource management 
across agency boundaries. We have long standing agreements that provide 
for interagency management and cooperation.
    The Forest Service and BLM also have a number of co-located offices 
operating under the banner of Service First. In these situations, the 
management official in charge manages both National Forest System 
lands, as well as BLM lands. In some cases the two agencies entered 
into an agreement that provides for one Federal agency to manage 
another's grazing program under their respective authorities.
    In addition, there are numerous planning groups helping to manage 
lands of mixed ownership. These groups include coordinated resource 
management (CRM) groups, watershed management groups and others. The 
underlying goal is to manage an area as a landscape.
    At the national level, the Forest Service and BLM have been 
coordinating revisions of our respective manuals and handbooks, with 
the goal of achieving greater consistency in our grazing programs while 
being mindful of the different enabling legislation governing our 
respective agencies. We have been cooperating in the development of 
standard monitoring techniques, as well as protocols for inventorying 
rangeland resources. We are working to coordinate the use of data for 
managing adjacent lands at the local level.
    The Forest Service will continue to work closely with the BLM and 
local communities to manage our Federals lands in a cooperative fashion 
to ensure the rangeland is healthy, sustainable, and productive.
    This concludes my statement. I would be pleased to answer any 
questions that you may have.

    Senator Craig. Thank you very much. Mark and Ms. Watson, 
thank you again. Let me start with some questions. While both 
of you have struggled with the issue of permit renewal--I guess 
my first question goes to you, Rebecca. I know this goes back 
before your time, certainly. How did the BLM get in the 
situation where it, in 1999, found a spike of 5,000 permits due 
for renewal?
    Ms. Watson. I think it goes, as you said, back before my 
time, but it is a combination of completing certain use plans 
between 1977 and 1983. There was a decision to issue 10-year 
grazing permits. That was combined with a decision by the 
Interior Board of Land Appeals on the NEPA issue.
    Those things came together and created a high backlog. In 
1999 and 2000 alone, some 7,200 of BLM's total 18,000 permits 
expired. I think that the BLM initially took a random approach, 
taking care of these grazing permits kind of as they came up. 
That wasn't efficient, and in fiscal year 2001 BLM took a 
watershed-based assessment strategy and focused on high-
priority areas and areas where there are good skills to get 
those permits processed in a more timely manner.
    We think we are making a lot more progress. As to Senator 
Domenici's question as to when we might be done with this 
process, we look to 2008, fiscal year 2008. We believe all the 
permits will be completed by then and that we will then be in a 
place with this strategy to address the permits coming up in 
2009, and not get in the same situation because we have done 
the NEPA, and we will be able to move forward better.
    Senator Craig. What you are telling us, in essence, is you 
have a plan. It is my understanding the Forest Service doesn't.
    Mr. Rey. No, we have a plan. The question is what path we 
take. When we try to--
    Senator Craig. You are not yet executing a plan, then?
    Mr. Rey. No. We are catching up, but we are not catching up 
fast enough to meet--
    Senator Craig. To be done by 2008?
    Mr. Rey. To be done by 2010, without two things occurring. 
One is a devotion of significant additional resources to do 
that task, and only that task; and/or, two, ameliorating some 
of that by expediting some of the procedures we are operating 
under now.
    I suspect it will end up being a combination of the two. I 
think that it is incumbent upon us to see if we can result in 
some improvements in these procedures so the money that we do 
add to this effort is spent more wisely than would otherwise be 
the case today.
    Senator Craig. My time has just run out, or nearly. I want 
to turn to my colleagues here. I ask this question of you, 
Rebecca. You have a plan in place and you are executing it. You 
think you will be complete by 2008. Has this backlog, and your 
effort to push it out of the way by doing the things you are 
now doing, damaged the agency's ability to conduct other 
aspects of rangeland management in the program?
    Ms. Watson. Yes. I think there is no question that it has, 
similar to Mark's answer to Senator Domenici's question. This 
paperwork requirement takes resources away from on-the-ground 
improvements for the monitoring and some things that really 
make a difference, both to the public that is interested in 
public-land grazing, and to the ranchers themselves. It has 
impacted our ability to do something that I think really makes 
a difference to the landscape we manage.
    Senator Craig. If there was one consistent theme we were 
hearing throughout our hearings in Idaho last month, it was 
that all of the Forest Service and BLM folks in the most part 
are in the city, are in the office doing paperwork, not out on 
the ground working with the permittees, monitoring and 
managing. I think that speaks to the problem that we have at 
hand here. I will turn to my colleague from Montana, Mr. Burns.
    Senator Burns. Thank you, Mr. Chairman. Mark, you have been 
down there at the Department of Agriculture now, and you can 
tell me if I am all wet or not. But I will tell you, every time 
I had a little meeting or we have a little situation and we 
call agencies out, we take a look at a river or something, they 
all have new pickups. Everybody shows up and everybody has a 
pickup. I have never seen two of them in one pickup yet.
    Then they say they are not getting their work done. You 
always come up here and ask for more resources or more money to 
complete what we should be working on, and it still doesn't 
happen, because somebody gets a better idea: maybe we had 
better be working over here. I never see any--their shirttails 
are pretty close to the backside. That is what kind of worries 
me a little bit, because I don't see these people working. I 
just don't.
    I think if you could give me some people--of course, they 
go to work at 8:30, and I will tell you a story about that--and 
they go home at 4:30 or 5 o'clock. I don't understand that, 
when we are paying them by the month. I would work them a 
little longer, I think. Let me talk about this.
    The Horse Butte allotment up in Yellowstone Park, you are 
pretty familiar with it, and of course we are to in Montana. 
Give me your educated guess on that. Would it be beneficial to 
implement a categorical solution on permit transfers and 
renewals?
    Mr. Rey. I think that where nothing else is changing except 
where we are renewing a permit or transferring it to a 
different owner who is going to manage it in the same way, that 
that is the kind of government action that NEPA contemplates 
could be covered by a categorical solution.
    So yes, I think that is one of the things we are looking 
at. The important caveat there is that nothing else is changing 
on the ground; it is simply a ministerial action to renew a 
permit or to transfer the ownership, the title of the permit, 
from one owner to another.
    Senator Burns. When we are going to use it for the same use 
under the same conditions and we have monitoring plans in 
place, there has been no abuse on the range, I don't know why 
we have to jump through all these hoops. I don't understand 
that at all. Rebecca, we worked out in--Julie, when did we do 
the search--
    Ms. LaPeyre. 1996.
    Mr. Rey. 1996.
    Senator Burns. It was before then, wasn't it? It doesn't 
make any difference. We worked out a cooperative plan between 
the grazing, BLM, and the Forest Service on your plan like 
you've got here on the conservation partnerships, sustaining 
working landscapes, and this type of thing.
    I would hope that you would familiarize yourself with that 
agreement up there, because basically I think that has been a 
working kind of a model that we can use for the grazing 
industry. Part of that was in Silver Bow County, part was in 
Beaverhead County. It worked pretty well. It is still working 
today.
    In fact, they worked all that out up there with the Smiths. 
I would familiarize yourself with that allotment. Maybe we can 
sort of make it work. I am aware that the BLM has been 
restructuring certain parts of their grazing policy and want an 
update of how the process is moving along. Can we expect--what 
can we expect at the end of the day?
    Ms. Watson. As I said, we did an announcement of proposed 
rulemaking. We threw out some questions. We had more from the 
public. I would say that the ranching industry and community 
supported that type of a proposal being addressed in our 
rulemaking.
    I believe our proposed rule, which will go out again for 
comment, will come out by the end of this year, so we would put 
that out for comment along with our draft environmental impact 
statement. So I think that our schedule, November--by the end 
of September.
    Senator Burns. Do you think there will be any loss of AUMs 
at the end of this, if the rules that you are proposing go in? 
Do you think there is a chance for a loss of an AUMS?
    Ms. Watson. That is a hard question to answer, I guess.
    Senator Burns. It sure is. Just take an educated guess.
    Ms. Watson. These rules and proposals are designed to keep 
people on the land and to manage the land in a better way so we 
can keep these ranching families on the lands. There has been 
no analysis of whether AUMs would be lost or gained, but the 
idea is that we support the ranching industry. That is the 
focus, as I said, is how do we keep them on the land and 
fulfill their responsibilities on range health.
    Senator Burns. We talked a little, but I want the record to 
note I had a good friend who was in the sheep industry in Big 
Timber, Montana. What it is about is controlling the fuel load 
on our forest floors for fire prevention. We can't prevent all 
the fires.
    Tommy Thompson--he ran the thing up there for a long, long 
time. He will tell you, and I think a lot of other people will 
tell you, if there is a very active grazing program on our 
forest lands, there are less fires. It is one way to control 
the fuel load on the forest floor, and especially in the 
meadows and this type of thing.
    I would suggest that be put somewhere as a working tool to 
control fuel load and this type of thing. I want to work with 
you on these renewals, but I am always a little skeptical about 
the loss of AUMs. I think we ought to work a little more on 
what we did up there with those joint agreements. In other 
words, are there some areas where maybe some years the entire 
pasture will be rested, won't be grazed at all?
    If grazers know and there is a rule and a guideline to 
follow, they can work within those guidelines; but they have to 
be consistent in the long term because they can't change their 
plans in a year's time. I just look forward to working with you 
on those rules and on the categorical exclusions. We ought to 
take a look at that.
    Senator Craig. Conrad, thank you. Let me turn to Senator 
Craig Thomas.
    Senator Thomas. Thank you, Mr. Chairman. We had a meeting 
this morning with the conserve ecosystems operation. That is 
the private universities and so on working with the agencies. 
Has BLM or the Forest Service worked with them in terms of 
helping get scientific information and private sector input?
    Ms. Watson. I don't recognize that name, but I recognize 
the description. The answer would be yes.
    Senator Thomas. I would hope so, because it seems like that 
is always what we hear: well, we don't have the manpower to do 
this. They aren't able to do the NEPA, EISs, and all those 
things. This is an opportunity, I think, to be able to get some 
other kinds of assistance. The administration is committed, 
aren't they, to having more local input into decisions that are 
made in the country?
    Ms. Watson. Yes.
    Senator Thomas. Do you think that is happening?
    Ms. Watson. I believe so. I think we are making an effort. 
Like any effort, people might find it falls short in one 
instance or another. But I think when I learn of that, I try to 
address it with clear communication.
    For our Secretary, that is the theme of her tenure: 
communication and consultation. We are making a strong effort. 
We are working with our publics to improve that communication. 
We have come up with a nationwide response towards addressing 
invasive weeds, and trying to work with them and get that local 
input. That is one tool we use.
    Mr. Rey. What we have tried to do, particularly in States 
where we have drought problems, is to utilize the expertise of 
universities, State agriculture agencies, the Natural Resources 
Conservation Service, the Agriculture Resources Conservation 
Service, and local soil and water conservation districts to 
work with us and our permittees to do a better job of 
evaluating what the implications of drought are going to be and 
where we will have to make some shifts. We have committees of 
that nature operating now in North Dakota, in Idaho, in 
Arizona, and in New Mexico.
    That is proving very helpful. They are all public 
employees, so in a strict sense it is not an advisory 
committee, but they come from different perspectives with a lot 
of State and local on-the-ground experience.
    Senator Thomas. That is good. But I do hear fairly 
consistently from people on the ground that what we talk about 
here in terms of policy doesn't always show up on the ground.
    For instance, I am told that this last group of hearings--
they were not hearings, but meetings, on the working 
landscapes--there was no input asked from the grazers; that all 
they did was listen to what the BLM was going to do. The 
reserve common allotment would allow grazing lands to be 
improved. Where would they find the reserve allotments?
    Ms. Watson. First, I would like to respond to your question 
about whether or not we were reaching out to other folks. Jim 
Hughes, who is with me here today, the Deputy Director of the 
Bureau of Land Management, personally attended most, if not 
all, the sessions reaching out to the public. The intent of the 
multiple sessions we had on the policy proposals we made was to 
solicit input from people around the West on this issue, so we 
intended to get comments. We received comments on those 
proposals.
    Reserve common allotments are commonly known as grazing 
banks. In fact, I saw one working up in Cody, Wyoming. That is 
where some of these have come from, from on the ground, where 
people are finding solutions to problems. Here they worked with 
a partner, in this case I believe it was the Nature 
Conservancy, who worked with the Hart Mountain Ranch to 
purchase some land. They had some goals they wanted to do.
    The ranch was having trouble with grazing. They were able 
to rest the land, move the cattle over to the property owned by 
the Nature Conservancy, and they all received a benefit. So the 
idea, again, is as we get lands--and there could be grazing 
groups, associations that have some lands--it is a safety 
valve.
    Again, perhaps a piece of public land, ground, is in need 
of some rest. We want to be able to find a safety valve so we 
can move the cattle somewhere else, so we don't have to take 
nonuse and the rancher doesn't have to take the impact of the 
loss of income.
    Senator Thomas. That is great if you have an alternative; 
but in most cases there are no alternatives, there are no 
allotments. That seems to be the problem.
    Ms. Watson. I think we feel there are alternatives out 
there. There is a lot of movement and change in the ranching 
communities now. For good or ill, there are a lot of sales, 
people getting out of the ranching business. There are 
opportunities to find partnerships there where we can work 
together.
    We think it is a useful tool. Again, it is a voluntary 
tool. If it is not workable in a certain situation, then it is 
not workable. But where it is, it can provide relief and make a 
difference to a rancher who is trying to continue in the 
business.
    Senator Thomas. Conceptually, it is a good idea, if there 
are resources available to do that. Let me say, the person who 
was there did a good job with very limited information 
available to him, because--apparently during the meetings he 
had been provided with much information but was not able, then, 
to ``exchange it.'' These were the hearings that took place 
there.
    Ms. Watson. I'm sorry for that.
    Senator Craig. Thank you very much. Rebecca, you mentioned 
in your testimony that--it goes back to what Senator Thomas was 
just talking about--the public comment period was not as good 
as it could have been. I think those were your words. I 
happened to write them down as you said them. What would you 
have done differently, if they were not as good as they could 
have been?
    Ms. Watson. I think we could have done a better job of 
reaching out to folks simultaneously as we put these proposals 
out. The way I have described it, it is sort of the chicken and 
the egg. We could have gone out and said that we were looking 
at a plan to make policy changes to improve your ability to 
stay on the land, and, ``Give us your ideas.'' Or we could have 
done what we did here, that ``These are some proposals.
    What do you think of them? What other ideas do you have,'' 
to kind of get the ball rolling. That is what we chose to do, 
but that seemed to get us started off on the wrong foot, so we 
are trying to now reach out. I personally am sending Mr. J.O. 
Ratliff, who is my special assistant, to many grazing meetings 
around the Western States to explain these proposals better, 
solicit input, hear the concerns, and try to improve the 
understanding of what we are trying to do.
    Again, we are not trying to take people off the land. We 
are opposed to that. We want to keep ranching on the land for 
the reasons that Mark described. These are our open space 
stewards. They take care of our wildlife. They provide water 
for the wildlife. We think they have a valuable role in public 
land management. We are trying to think of ways to keep them 
there. You know better than anyone the opposition that is out 
there, and how do we give our ranching community the tools to 
stay on the land?
    Senator Craig. I would agree, there is opposition. There is 
outright radical opposition that believes there ought not be 
any livestock grazing on any public lands. I understand their 
position, but I very much disagree with them. There is also a 
growing belief out there that the fragmentation that is going 
on, the urban-wildland interface that is occurring, in part is 
a product of such dramatic reductions in AUMs that you have 
destroyed the economic viability of the ranching unit.
    There is a margin of operational viability. Once that is 
destroyed, the ranch goes, and the private land goes into some 
other use, or it is broken up. So when you talk to us about a 
new plan, a reach-out, an effort to devise a variety of things, 
and yet you cannot make the statement, when asked the question 
by Senator Burns, that you don't know if this will result in 
the reduction of AUMs--the reduction of AUMs destroys the 
economic viability of the operating unit that results in the 
fragmentation of the very land we are concerned about.
    I would have hoped that a stated goal, while it would have 
been risky and bold and criticized, would be no reduction in 
AUM. We have gone from 18 million AUMs for BLM in the 1953 to 8 
million in 2003; from 9.5 million in 1993 to 8 million in 2003. 
The name of the game in range management for all these years 
has been get rid of the numbers, get rid of the livestock.
    Now, a variety of other things have been applied 
underneath, some of them productive, such as rest and rotation. 
Those are all combinations of the way we utilize the resource 
itself. But the end product of those efforts has been the very 
frustration we have today. What did I do a couple years ago?
    I hustled around here and got some money to go out and 
acquire a chunk of private land of a ranch to turn it into 
public land, so that I wouldn't destroy or we wouldn't destroy 
the winter migrating pattern of mule deer down in Caribou 
County, Idaho. Why was that pattern being destructive? Because 
the ranch that sustained that pattern by openness and 
connectivity of the State, Federal, and private land was being 
subdivided because the ranching unit was no longer viable, 
because its AUMs had been cut 75 percent in 20 years, the 
Forest Service and the BLM. As a result, the mule deer were 
stacking up on fences in the winter migration.
    The Nature Conservancy and Safari Club, International, were 
frustrated and concerned. In an address--in an effort to 
sustain that wildlife pattern, we had to go out and acquire the 
private land in a State that is 63 percent public land to do 
that. That is my great frustration. My question of you, then, 
Rebecca, would be this.
    I know the BLM has annual reports on its performance and 
accomplishments on rangeland management work. Could you please 
provide for the committee a comparative analysis in a table 
format of the BLM's accomplishments in range programs for each 
year of the past 20 years? And here we go, me criticizing you 
people for being in the office instead of being out on the 
range. But I am quite concerned that those in these offices 
here don't get to a range, except during August recess and 
other times. Their job here isn't range monitoring.
    Could you give us some kind of comparative analysis of the 
annualized work that goes on or has gone on in relation to the 
program? I think that would be extremely valuable.
    Ms. Watson. Yes. I would be happy to do that.
    Senator Craig. Mark.
    Mr. Rey. I think we can do the same thing.
    Senator Craig. We would like the same thing from you. But 
more importantly, do you have in place, or are you working on 
to put in place now the same kind of program that BLM has in 
the context of time lines and certainty, or relative certainty, 
as to when we get these permits restructured and issued?
    Mr. Rey. We have the same time line. My problem with the 
time lines is that it is predicated on an increase in resources 
that I am not convinced is the best way to proceed. What I am 
interested in doing is exploring with the committee and others 
ways that we can accelerate the rate of achievement of that 
time line at lower cost. I would like to be able to reprogram 
that cost back into the actual on the ground work.
    Senator Craig. We would like to accomplish that, too. But 
in the meantime, and during the time of the process--
    Mr. Rey. We will send you that, along with a comparative 
analysis.
    Senator Craig. I have other questions, but Senator.
    Senator Thomas. Just a couple. Mark, this permitting 
process seems to have been--continues to be one of the 
problems, the time it takes. I think you indicated 68,000 or 
something to do it? Is that something that ought to be changed 
in the regulations or in the law that could be--where you could 
continue to do what we should be doing to conserve the 
resources, but do it more efficiently?
    Mr. Rey. The principal things we need to look at are the 
amount of time and effort we are putting into environmental 
analysis on renewals where nothing is changing. I question 
whether that is the wisest expenditure of the time and money 
that we have available.
    What I want to look at is ways to accelerate that part of 
the work so I can devote the money we do have to portions of 
the work where the analysis is actually going to achieve a 
tangible, desirable result.
    Senator Thomas. It looks like the allotments could fall 
into different categories, and those categories receive 
different kinds of----
    Mr. Rey. Yes.
    Senator Thomas. Is it the NEPA requirement that is so 
burdensome?
    Mr. Rey. That is probably the largest burden of the time 
and resources. It is not the only one, but it is one of the 
ones that is most amenable to the development of different 
procedures than the ones we are using now.
    Senator Thomas. Do you have any thoughts, Rebecca--are 
there things that ought to be changed, either by the Congress 
or by the regulatory agencies, that would speed up the work and 
still allow it to accomplish the tasks?
    Ms. Watson. I think that is something that we are looking 
at in the Department of the Interior, and together with the 
U.S. Forest Service, taking a look at how we can work more 
efficiently with NEPA. We are examining that issue right now. I 
think there are always ways to improve NEPA implementation.
    We have demonstrated some of those in the healthy forest 
initiative. I think there might be similar efficiencies here. I 
would get back to the point that Mark made earlier, that we are 
doing a lot of paperwork here. Meanwhile, there are concerns 
about the landscape. Couldn't we put our efforts better into 
monitoring and doing things on the ground that matter, rather 
than going through paperwork?
    We are in the situation that we are in. It is not really 
helping what everyone on both sides says they are concerned 
about, which is the health of the range. I guess--do we really 
want to make a process that doesn't result in a good end 
product more efficient? Maybe that is where we are, but it 
would be nice if we could put our money on the ground.
    Senator Thomas. It would be nice if we were not driven so 
much by lawsuits, too.
    Ms. Watson. That would be a happy world.
    Senator Thomas. Indeed. Mr. Chairman?
    Senator Craig. Thank you very much, Craig. To paraphrase 
one of the ranchers in Challis, Idaho, last month, put a BLM 
person in the pickup beside me, or on a horse beside me, as 
often as you can, and we will work out a way to improve this 
range and still raise cattle on the range. I thought that was a 
phenomenally common-sense statement.
    He said, we want to do it right, and we want to make sure 
that when we do it, they see that we are doing it right, 
instead of to come out here with a yardstick and return and 
say, whoops, the grass stubble is just a certain height, and it 
is in violation thereof.
    Get the cattle off. It is not day-to-day management as much 
as it is long-term goals and some practices that combine to 
produce quality range. We have got to get more people on the 
land working with these ranchers and a consistency of policy. 
That was heard throughout, that concern, throughout these 
hearings.
    I think that was most valuable. Both of you have stated 
that your folks are in the office shuffling papers at a very 
high cost to the environment, interestingly enough, and the 
rangeland, or the resource itself, in many instances.
    That shouldn't be the case. A question probably of both of 
you: Some environmental groups have suggested establishing a 
process that would allow them to purchase a grazing permit from 
a rancher with the grand design to then permanently rest that 
allotment. How would you respond to this kind of a proposal? I 
ask that of you, in the first part, Mark, and then Rebecca. If 
you would respond, please.
    Mr. Rey. There are instances in specific areas where we may 
be trying to achieve an individual land management function 
that justifies retiring a lease. I think in the case of BLM and 
Grand Staircase Escalante there was some justification.
    The proposal that you are referencing, however, is a broad 
and generic proposal that asserts as its basic premise that our 
wildlands will be better off if we can successfully and perhaps 
more humanely reduce the number of ranchers that we have out 
there. As a general proposition, it is one of the stupidest 
ideas that I have ever heard.
    I have heard a lot of stupid ideas, including a few that I 
have advanced. Because once we have accomplished that 
objective, we will have the rancher, who we have bought out, 
with little or no choice but to sell his base property to the 
first subdivider or trophy home developer who comes down the 
road. And I have to ask myself, what have we gained in those 
transactions?
    Senator Craig. Rebecca.
    Ms. Watson. I would echo what Mark said. I think it is a 
stupid idea and a nonproductive idea, simply from a fiscal 
sense. It is some $2.2 billion to accomplish their goal, and in 
the end it is a result that they should not want.
    Again, removing ranchers--public land grazers from the land 
results in negative impacts. It results in a subdivision that 
is there forever. Mines, timber, grazing, those are temporary 
uses. A subdivision lasts forever. A Wal-Mart is there for a 
long time. That is habitat that is lost. That is recreational 
land that is lost. That is land--empty space that we from the 
West love just seeing empty.
    So that is not a result that anybody should want. It is not 
a result that we want at all. We believe the Taylor Grazing 
Act--if your land is in a Taylor grazing district it is 
designed to be grazed. Certainly, you can relinquish your 
permit; but as for permanent retirement, that is something that 
cannot be done by the BLM. We believe it can only be done by 
Congress.
    We believe you can retire land for a period of time through 
a land use plan amendment, but again, the ultimate goal is 
bringing the land back to grazing health. I would take the 
opportunity to clarify my answer to Senator Burns. Even though 
I am from Montana, I had a hard time following his question.
    The premise of my statement was that we want public land 
grazing to last. We understand the connection between AUMs and 
financial viability. What we have found when you do some rest/
rotation--and all of those tools that I mention in my policy 
are basically various forms of rest/rotation. It is designed to 
bring the land back to health so it can take more AUMs. This is 
the example I cited to him in Wyoming.
    That is what happened there, that more AUMs were put back 
into that ranch property. That is our goal, to have sustainable 
ranching. I just wanted to clarify that.
    Senator Craig. Thank you, Rebecca, for doing so. I know one 
of the great concerns among the livestock and public land 
grazing industry is that once off the land, never again to come 
back. While many allotments have gone into rest or AUMs have 
been turned back--and there is phenomenal flexibility out there 
on most rangelands today to rest and move livestock elsewhere, 
assuring them the same AUMs within a reasonable distance of the 
operating base property.
    But I think that is the greater concern, that once off the 
land, never to return. There is about 30 years of history to 
cause that feeling to exist against public land--with public 
land grazers. I think that is the concern that you will find, 
in the pushback, if you will, unless there is flexibility in 
the program to move that livestock elsewhere and sustain the 
AUM while you are offering the rest, the flexibility, and maybe 
the rehabilitation in the given property.
    Mr. Rey. I think we will have the opportunity to prove our 
intentions if, Lord willing, this drought does start to reverse 
itself, because many of our permittees have taken voluntary 
reductions in the face of the extreme drought conditions based 
on the promise that when those conditions turn around, that 
those AUMs would be restored.
    We intend to restore them when the range and drought 
conditions improve.
    Senator Craig. That will be an opportunity. We certainly 
hope in certain areas of the Southwest, especially now--we got 
some turnaround on the western side of the Great Plains area, 
in the State of Idaho. Parts of Montana and Wyoming have 
improved dramatically, but it is not the case in Arizona and 
New Mexico.
    Let me close by this observation. It occurred to me about 4 
or 5 years ago--I happened to be out in south central Idaho in 
the Shoshone district of the BLM having meetings, doing a town 
meeting or something, and it was a late August afternoon.
    It was hot, and, quite typically, a thunderstorm developed. 
Lightning struck, and a range fire was started. It started on 
an allotment, or actually, two allotments where the livestock 
had been taken from them 7 or 8 years before, and the 
allotments had never been touched.
    They were wading in grass. They were beautiful, no question 
about it. The riparian areas, the willows, the water was all 
there. Five years later and 175,000 acres later, nothing was 
there. All of the riparian zones, all of the willows were 
burned to little piles of ashes as that fire roared through 
there, so hot and so aggressive that Shoshone district would 
not put firefighters on the ground.
    The only thing that stopped the fire as it rushed from west 
to east that afternoon was the highway that goes from Twin 
Falls to Sun Valley, and that highway stopped it for just a few 
moments. It jumped that highway and went on for another 25,000 
acres, until it hit nothing but lava rock, and it finally 
stopped. All of the rest/rotation, all of the effort to 
rehabilitate that rangeland, disappeared in one firestorm.
    While grass can come back, the ability to bring those 
forests back and to bring the riparian area back took a decade, 
in a semi-arid high desert environment of that kind. To me, 
that was the best example of the worst example, or the worst 
example of the best. While moderate grazing would have not 
allowed the fuel buildup that occurred, and the total wipeout 
of the resources--of course, that is now getting played out in 
another dramatic way in Arizona and New Mexico, as we speak.
    As Mark knows, this relates to Forest Service management, 
and all the fuel-loaded lands of the Forest Service that are 
timbered. Sometimes the best thought-out ideas, when carried to 
the extreme, create some of the most difficult, if not 
impossible and destructive, situations. What was beautiful in 
the morning of that day was destroyed for decades in the 
evening of that day. There was no middle ground. Mother Nature 
at her best did her worst.
    Thank you all very much for coming. We will work closely 
with you on these, certainly both with you, Rebecca and Mark, 
where we can help adjust, create flexibility, create some 
exclusions where it fits appropriately, where we can sustain it 
in rulemaking and sustain it before the courts.
    I am quite confident some of these efforts will be 
challenged. They are not radical, but they are certainly 
opposed by some. But it is clearly worth trying because failing 
to do so is, in my opinion, not going to reverse or neutralize 
the decline in the livestock numbers that I have talked about 
here that have occurred over the last good number of decades.
    We would like to sustain for the West, and especially for 
the rural West, a livestock grazing industry. We think it is 
important to our States and to the people involved. We think it 
is important to the economy of the country to be able to do so.
    We also believe it is a very important management tool of 
the lands in question and the resource we are concerned about. 
Thank you for coming today. We appreciate your time.
    (Whereupon, at 4:05 p.m., the hearing was adjourned.)
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    [Answers to the following questions were not received at 
the time this hearing went to press.]
                      Questions From Senator Wyden
    Question. Interior Secretary Norton recently sent a letter to the 
Grand Canyon Trust stating her support for private interests to 
``retire'' grazing permits for conservation use. A few years ago at the 
Oregon Cattlemen's Association annual meeting in Hood River, I endorsed 
an approach where ranchers and conservation groups can collaborate 
rather than fight in court. What progress are your agencies making to 
actively support collaborative efforts throughout the West and in 
Oregon?
    Question. Assistant Secretary Watson, in spite of Secretary 
Norton's letter, I understand these collaborative efforts are being 
hindered because of Interior's reluctance to recognize these willing-
buyer, willing-seller transactions; consequently, potential fenders are 
unwilling to put up the money for the permits. Can you explain this 
behavior?
              Questions From Senator Domenici to Mark Rey
    Question. Unfortunately, I have heard a lot of frustration from 
ranchers in New Mexico in their dealings with Forest Service. I am 
particularly concerned with what is happening on the Gila National 
Forest. It's my understanding that about 85% of the Forest was grazed 
at one time. Environmental groups have applied strong pressure to 
remove grazing in this area. I'm hearing that there has been an 87% 
reduction in AVM's in areas bordering the wilderness and a 33% 
reduction in other areas.
    1. How does the Forest Service justify an 87% reduction in and 
around the Wilderness portion of the Forest when the Wilderness Act 
says that grazing in Forest Service Wilderness ``shall be permitted''?
    2. Is there a scientific basis for this degree of reductions?
    3. If so, can you have your staff provide the Committee a summary 
of this data and the rationale for these reductions?
                Questions From Senator Craig to Mark Rey
                             permit renewal
    Question. Your testimony would indicate to me that the Forest 
Service has yet to figure out how to address its backlog on permit 
renewal. Its now been eight years since the Recision Act passed, and it 
appears that little progress has been made. Can you get a Forest 
Service strategy in place within 60 days for completing this backlog?
                   sawtooth national recreation area
    Question. In April, Federal District Court Judge B. Lynn Winmill 
renewed an injunction protecting wolves on public lands in Idaho's 
Sawtooth National Recreation Area.
    1. Is there flexibility within this court order for the SNRA to 
work with the grazing community to find acceptable methods for 
protecting livestock from predation?
    2. Do you believe the SNRA will be able to complete NEPA in 
accordance with the schedule ordered by Judge Winmill?
    3. If not, what steps will the Department take in response to the 
order?
         Supplemental Questions on the June 25 Grazing Hearing
             Questions From Senator Craig to Rebecca Watson
                               monitoring
    Question 1. With your staff committed to addressing the permit 
backlog and lawsuits. How much effort is actually being directed toward 
range monitoring?
    Question 2. I would be interested in learning about BLMs lawsuit 
situation the effects grazing. I know much of this information is 
difficult to track but can you provide me information as to:
          --How many lawsuits?
          --How much is spent annually responding to this litigation, 
        including additional workload imposed by court orders?
          --Identify where the funds come from to address the cost of 
        responding to litigation?
          --What impact do these costs have on the BLM's on-the-ground 
        management capability?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

              Statement of American Farm Bureau Federation
    The American Farm Bureau Federation (AFBF) is pleased to offer this 
statement for the hearing record. AFBF's membership includes most of 
the livestock producers in the United States, including those who graze 
livestock on federal lands. Our members graze livestock on lands 
managed by both the Forest Service and the Bureau of Land Management 
(BLM).
    AFBF has been a full participant on behalf of our members in the 
debates surrounding livestock grazing issues. We were a plaintiff in 
the landmark litigation, Public Lands Council, et. al. v. Babbitt, 
which challenged the controversial ``Rangeland Reform'' grazing 
regulations all the way to the U.S. Supreme Court. We have actively 
sought relief to the dilemma of trying to timely address grazing permit 
renewals that plague both the Forest Service and the BLM. We have been 
actively engaged with the Forest Service and the BLM on a number of 
grazing issues that affect our members.
    There have been a number of livestock grazing issues that have 
arisen over the course of the past few years. We would like to present 
our views to the committee on some of these issues.
1. Grazing Permit Renewal
    In the mid-1990's, both the Chief of the Forest Service and the 
Director of the BLM directed to their field level staffs that 
documentation required by the National Environmental Policy Act (NEPA) 
had to be completed before livestock grazing permits held by area 
ranchers could be renewed or transferred. At the time, both agencies 
were facing a significant number of permits expiring during that year.
    Both agencies quickly realized that they were not going to be able 
to complete NEPA documentation for all of the expiring permits, meaning 
that they could not be renewed. Innocent ranchers who had complied with 
all the terms and conditions of their permits and who had done nothing 
wrong, suddenly found themselves facing the loss of permits because the 
issuing agency could not complete the required paperwork.
    Congress came to the relief of the ranchers and the agencies, 
albeit via different routes. In 1995, Congress required Forest Service 
units to establish a schedule for completion of NEPA documentation for 
their permits, and allowed permits expiring before the scheduled NEPA 
work to be renewed on the same terms and conditions as the expiring 
permit, pending completion of NEPA work. For the BLM, Congress added a 
similar provision in the Interior Appropriations bill, which allows for 
renewal of that provision one year at a time as necessary. The American 
Farm Bureau Federation strongly supports both of these provisions.
    Both agencies found it more and more difficult to meet their NEPA 
obligations. Budgets for range were slashed. Agency manpower was 
reduced. Forest Service range personnel were cut by nearly half in the 
eight years since the Rescissions Act schedule was enacted, and the 
remaining agency personnel were often pulled away from their range 
duties for other duties, such as wildfire control.
    The result was that the agencies could not meet the obligations 
imposed during different times. The Forest Service fell behind on its 
1995 schedule, and once again innocent ranchers faced the loss of their 
permits despite having done nothing wrong. Farm Bureau strongly 
supported the inclusion of a provision in the 2003 Interior 
Appropriations Act that treats permit repeals for the Forest Service 
the same as those for the BLM.
    Farm Bureau views the 2003 Appropriations Act provision as a 
temporary fix to resolve a situation that is outside the control of 
either the BLM or the Forest Service. As scarce resources and manpower 
shift from one area to another within the agencies, it becomes 
increasingly difficult for them to maintain NEPA compliance on expiring 
or transferring permits. The continuing provisions in the Interior 
Appropriations bill are necessary to protect permittees until the 
agencies can catch up with their NEPA work, their NEPA responsibilities 
under current funding and manpower constraints.
    We also advocate streamlining NEPA procedures so that livestock 
grazing permits can be more expeditiously renewed or transferred. We 
believe that categorical exclusions from NEPA documentation for certain 
types of grazing permit renewals or transfers should be explored. We 
will work with the agencies and/or Congress to accomplish these.
2. Proposed BLM Revisions to Grazing Regulations
    In 1994, Secretary Babbitt significantly amended the BLM grazing 
rules. These amendments, among other things, eliminated the statutory 
concept of ``preference'' as an adjudicated right. Another amendment 
eliminated permittee of range improvements that they had built and paid 
for. They also would have allowed for entities to purchase and retire 
grazing permits by allowing ``conservation use'' of allotments as a 
permitted use. All of these changes adversely impacted ranchers.
    AFBF and livestock organizations challenged these amendments in 
court. The case was heard and decided by the Supreme Court.
    An Advance Notice of Proposed Rulemaking (ANPR) to revise the 
grazing regulations was published earlier this year. AFBF strongly 
supports these revisions to eliminate the unworkable and unfair 
amendments promulgated in 1994. Attached is a copy of the comments we 
submitted on the ANPR.
    Restoring an ownership interest in range improvements will allow 
ranchers an increased opportunity to obtain operating loans from their 
banks by allowing such improvements to be listed on their balance 
sheet. Restoring the full meaning of ``preference'' will restore the 
full amount of grazing opportunity as contemplated by the Taylor 
Grazing Act. Elimination of ``conservation use,'' struck down by the 
Supreme Court, will retain grazing permits for grazing purposes.
    Our positions on other proposals is contained in the attached 
comments.
3. Reserve Common Allotments
    One new idea that would be incorporated into the revised 
regulations is the concept of a reserve common allotment. A reserve 
common allotment program would provide for unused allotments in an area 
to be available for use by permittees whose own allotments have 
suffered damage from wildfire, disease or pests, or is being restored. 
It would provide flexibility for both ranchers and the agency by 
providing alternate forage for ranchers and encouraging the restoration 
of allotments by the agency.
    AFBF generally supports the reserve common allotment concept under 
appropriate circumstances, which include:

  <bullet> Reserve common allotments should come from vacant or unused 
        allotments, and not from existing permittees being removed from 
        their allotments.
  <bullet> Reserve common allotments might be taken from allotments 
        where the permittee elects to take non-use, so long as the 
        consent of the original permittee is obtained and agreement for 
        compensation or maintenance of the allotment is made.
  <bullet> Permittees who use common allotments, or who allow their 
        allotments to be used as such, should not lose their water 
        rights for lack of beneficial use.
  <bullet> Reserve common allotments should be available only to 
        qualified BLM permittees whose own allotments have been damaged 
        by drought, fire or pests, or which is undergoing restoration.
  <bullet> Reserve common allotments should be grazed at current 
        carrying capacity, and not used as a subterfuge to reduce or 
        eliminate grazing in an area.
  <bullet> Reserve common allotments should not be used as an excuse 
        for entities not engaged in the livestock business to purchase 
        associated base property and turn the permit over for light or 
        no grazing.
  <bullet> There should be a limit on the amount of reserve common 
        allotments within any given area.
  <bullet> Reserve common allotments should not be permanent.
4. Working Landscapes Proposal
    Together with the ANPR on revisions to the grazing regulations, BLM 
announced a program it calls ``Working Landscapes.'' BLM sees this 
program as a voluntary way for ranchers and the BLM to jointly provide 
increased enhancement for other values, such as wildlife habitat.
    The ``Working Landscapes'' approach currently would provide such 
incentives through conservation partnerships, conservation easements, 
mitigation for endangered or threatened species, or voluntary allotment 
re-structuring to reduce overall grazing pressures.
    ``Working Landscapes'' should provide a number of tools to achieve 
conservation ends, not be the only way to achieve them. For example, 
the BLM proposal to obtain conservation easements in exchange for 
checker-boarded BLM land should also include an option for the rancher 
to purchase the BLM land as well.
    We do not oppose truly voluntary agreements entered into by 
ranchers with the BLM. Ranchers wishing to engage in conservation 
measures with the BLM on a voluntary basis should be given the tools to 
do so.
5. Livestock Grazing as Part of the Healthy Forest Initiative
    We believe that livestock grazing can be an important toll in 
implementing the administration's Healthy Forest Initiative. The 
initiative is designed to reduce fuel loads on our nation's forests and 
rangelands in order to prevent the likelihood of catastrophic 
wildfires.
    Livestock grazing is useful in reducing fuel loads on rangelands, 
and it also helps to eliminate certain harmful invasive plants. We urge 
the Committee and the agencies to consider livestock grazing as a tool 
that might be used in fuel reduction or restoration projects as part of 
the Healthy Forest Initiative.
    These are some of the main livestock grazing issues that affect our 
members. We appreciate the opportunity to present this statement, and 
look forward to working with the Committee to resolve these issues.

To Whom It May Concern:

    The American Farm Bureau Federation is pleased to offer its 
comments on the Advance Notice of Proposed Rulemaking and the scoping 
request for preparation of an Environmental Impact Statement (EIS) on 
changes to grazing regulations in the lower 48 states.
    The Bureau of Land Management (BLM) will develop an Environmental 
Impact Statement (EIS) in connection with a proposed rulemaking to 
amend its regulations relating to livestock grazing. The agency has 
listed a series of subject areas that will be considered for the new 
rule. Unfortunately, the agency has provided no further explanation of 
these subjects or any further indication of what changes they would 
like to make.
    Farm Bureau members graze livestock on lands managed by the Bureau 
of Land Management, predominantly in the Western United States. The 
passage of the Taylor Grazing Act in 1934 prescribed an orderly method 
for allocating forage on public lands to be administered by BLM. The 
purposes of the Taylor Grazing Act were to protect grazing resources, 
and stabilize the Western livestock industry. Grazing districts were 
established in many parts of the West. Grazing was determined on the 
basis of ``preference,'' which gave those who historically used the 
land and lived and ranched near the federal lands the first right to 
secure newly-issued grazing permits. Grazing preferences were 
adjudicated in each grazing district throughout the West. Ranch units 
in the West are comprised of privately owned lands and also federal 
grazing permits to graze livestock on federal lands. Ranchers relied on 
grazing preferences, and also rely on the public lands to make their 
ranching operations viable.
    The system had worked reasonably well for 60 years, when Secretary 
of the Interior Babbitt drastically changed it. ``Preference'' was 
replaced with ``permitted use,'' which stripped permittees of the 
benefits of their adjudicated forage amounts. Range improvements that 
permittees funded and built were taken away from them, with title 
vested in the United States. Grazing permits were given to entities 
that had no interest in using the lands for livestock grazing, and 
regulations allowed these entities to put the allotments into a 
permanent non-use category of ``conservation use.'' Surcharges were 
levied on permittees who subleased their allotments to their neighbors 
in need of forage.
    The system that had been in place for 60 years was suddenly thrown 
out of whack. Change is needed to restore the balance and to stabilize 
a livestock industry that has been devastated by drought and low 
prices.
    We support the efforts of the BLM to amend the grazing regulations. 
Changes are needed to make the grazing regulations more workable for 
all concerned parties. We believe, however, that regulatory amendments 
should go farther than those subject areas set forth in the Advance 
Notice.
    Reserve Common Allotment. This new concept proposed by BLM would 
develop a system of BLM lands held in reserve, to be allocated for use 
by livestock permittees whose allotments are unavailable due to 
restoration projects or natural conditions such as drought or wildfire.
    This concept could provide greater flexibility to both the BLM and 
to livestock permittees. It provides an outlet for producers whose 
allotments are unusable due to weather, fire, or other reasons beyond 
their control. This concept could also encourage both producers and BLM 
to undertake needed restoration projects on federal lands if there is 
alternative forage available for producers. If that is the intention of 
BLM, a reserve common allotment program would be beneficial to 
permittees as well as the grazing resource.
    We support the concept of a reserve common allotment program under 
appropriate circumstances. Some issues that need to be addressed in 
regulations implementing a reserve common allotment program include:

  <bullet> Reserve common allotments should be drawn from vacant or 
        unused allotments and not created by removing permittees from 
        existing allotments. This should be spelled out in the 
        description. Reserve allotments might also be drawn from areas 
        that were historically grazed, but which have not been grazed 
        in recent years.
  <bullet> Reserve allotments might also be drawn from allotments where 
        non-use is taken for reasons other than needed rest. This would 
        require the consent of the permittee who has taken non-use, and 
        would require compensation or agreement for maintenance of 
        fencing and other range improvements contained on the 
        allotment.
  <bullet> Permittee water rights in most states is predicated on 
        making beneficial use of water for a specified period of time. 
        Permittees who use RCAs, or permittees who allow their 
        allotments to be temporarily used for RCAs may inadvertently 
        find that their water rights under state law have been 
        forfeited due to non-use. Permittees should not lose their 
        water rights either for using a RCA or for allowing an 
        allotment to be used for a RCA. This issue must be clarified 
        and resolved prior to development of any RCA program.
  <bullet> The agency should also devise a fair and equitable process 
        for allocating forage under the reserve common allotment 
        program.
  <bullet> Rules should also specify whether more than one permittee 
        would be allowed to use a reserve allotment at a time. If so, 
        rules implementing such a program should specify requirements 
        such as branding and separation requirements to ensure orderly 
        use of the allotment.
  <bullet> Any placement of allotments into a RCA must be truly 
        ``voluntary'' on the part of the landowner. There must be no 
        coercion or ``friendly persuasion'' on the part of any BLM 
        employee to have someone place an allotment into a RCA.
  <bullet> RCAs must be available to qualified BLM permittees whose own 
        allotments are unusable due to drought, fire, pest infestation 
        or restoration work.
  <bullet> RCAs shall not be a subterfuge for taking ``conservation 
        use.'' Any RCA must be used for grazing at its carrying 
        capacity, and not be used as an excuse to cut or eliminate 
        livestock grazing.
  <bullet> RCAs should also not be an excuse to allow entities not 
        truly engaged in the livestock business to purchase private 
        base property and turn any associated permit over for light or 
        no grazing. RCAs should be used, and should be a true safety 
        valve for permittees displaced by circumstances beyond their 
        control. Permittees whose allotments are rendered unusable by 
        bad management practices should not be eligible to participate 
        in the RCA program.
  <bullet> There should be a limit on the amount of RCAs in a given 
        resource area. Allowing no more than 10 percent of an area to 
        be in RCA for example, might serve as a benchmark.

    Ranchers Share Title to Range Improvements. This change would 
restore a provision that gives permittees some title to the range 
improvements that they make and pay for. The title might be held 
jointly with the United States for more permanent improvements. Farm 
Bureau and other livestock organizations unsuccessfully challenged the 
provision vesting title to BLM in court.
    We support reinstatement of co-ownership of range improvements.
    Farmers and ranchers who pay and construct range improvements 
should have an ownership interest in them. They should be able to list 
range improvements that they construct as assets on their balance 
sheets for purposes of determining their eligibility for bank operating 
loans. Permittees will be in a better position to obtain financing if 
they are allowed to have an ownership interest in range improvements. 
Providing co-ownership with permittees will also give permittees an 
incentive to construct and maintain range improvements on federal 
lands.
    Extending Permitted Non-Use From Three to Five Years. The BLM is 
proposing to extend the period for which a permittee can take non-use 
from three to five years. This change would provide greater flexibility 
to producers and to the forage resource. Ranchers benefit because it 
provides them greater flexibility to address situations which caused 
the non-use in the first place. Grazing forage also benefits if 
additional time is needed to address situations such as drought that 
might require non-use.
    An extension of the non-use period must be accompanied by other 
changes in order to be acceptable. There is some concern among our 
members that extending the period of non-use to five years would allow 
allotments to be placed in a de facto ``conservation use.'' 
``Conservation use'' was added by Rangeland Reform as a permitted use, 
to allow non-livestock entities to obtain grazing permits and not use 
the allotment for grazing for the permit term. A five year non-use 
should not be a subterfuge to achieve ``conservation use,'' which the 
courts have said is outside the scope of current BLM authority. 
Permittee concerns on this issue are heightened by the recent BLM 
action in the Grand Staircase Escalente National Monument in Utah, 
where grazing permits were transferred to an affiliate of the Grand 
Canyon Trust and essentially retired from grazing use.
    Another necessary and integral part of any extension of the non-use 
period to five years is restoration of a provision in the regulations 
requiring that a person must be ``engaged in the livestock business'' 
as required by the Taylor Grazing Act. That will ensure that allotments 
will actually be used for grazing and not for other uses.
    It is also important that the original concept of the grazing 
``preference'' as an adjudicated amount of forage allocated to a 
permittee be restored through these regulations in order to protect any 
amount of non-use from being lost in subsequent years. Taking 
authorized non-use should net result in lost or reduced grazing. 
Restoration of the grazing preference concept as originally included in 
the Taylor Grazing Act will help ensure such protection. (Discussed 
below in greater detail.)
    We also believe that allotments for which five year non-use is 
taken should be part of the Reserve Common Allotment program for at 
least a few years for which non-use is taken. Such a requirement would 
allow the management of the allotment during the period of non-use, and 
keep the allotment grazed during this time. It would also allow the 
original permittee to return to the allotment at the end of the non-use 
period.
    Clarifying That BLM Will Follow State Law With Respect to 
Acquisition of Water Rights. There have been efforts by some federal 
agencies to claim reserved federal water rights or otherwise acquire 
water rights outside the state water system. Continued drought and 
increasing water demands make this a critical issue. Any water rights 
should only be acquired through the process established by state water 
law.
    Rangeland Reform also provided that water rights on federal lands 
for livestock grazing purposes were to be acquired in the name of the 
United States to the extent allowed by state law. We would support an 
amendment that would allow water rights for livestock grazing be 
acquired in the name of the permittee as was allowed before 1995.
    Non-Permit Related Activities as Prohibited Activities. ``Rangeland 
Reform'' amendments enacted in 1995 greatly expanded the list of 
prohibited activities that could result in the suspension or 
cancellation of a permit. Under Rangeland Reform, a permit could be 
cancelled for any violation of any state or federal environmental law, 
without regard to whether it was in the furtherance of livestock 
grazing under the permit. The current rule only requires that a 
violation be ``related to'' grazing use.
    BLM managers should not be authorized to take actions against a 
permittee for actions that do not violate the terms and conditions of 
the permit itself, and permit terms and conditions should not contain 
items that are not part of grazing administration. Permittees who abide 
by the terms and conditions of their permits should not have action 
taken against their permit for violations of law or regulation outside 
the permit. Any such violations should be addressed within the confines 
of the particular law or regulation allegedly violated, and not by the 
additional action against a grazing permit. These statutes provide 
ample authority for addressing alleged violations on their own terms. 
Giving BLM the authority to also address such issues by allowing permit 
actions provides too much opportunity for abuse.
    State law in some cases allows state leases to be cancelled for 
activities unrelated to livestock grazing. For federal regulations to 
allow for federal grazing permits to be suspended or cancelled when 
action is taken against state leases allows permits to be suspended or 
revoked for reasons unrelated to livestock grazing. We suggest that 
current language be modified to reflect this issue.
    Permit Qualifications. The Taylor Grazing Act requires that 
landowners ``be engaged in the livestock business'' in order to acquire 
a grazing permit or preference. Rangeland Reform removed that 
requirement, in order to allow for ``conservation use'' of grazing 
permits. The Rangeland Reform provision was struck down by the Tenth 
Circuit Court of Appeals as violative of the Taylor Grazing Act, and 
that ruling was not overturned by the Supreme Court in its review of 
Rangeland Reform. However, it was never removed from the BLM 
regulations.
    We support provisions that strike ``conservation use'' wherever 
that term is found in the regulations and restore the requirement that 
permit and preference holders ``must be engaged in the livestock 
business'' as required by the Tenth Circuit Court and the U.S. Supreme 
Court. Because the courts have already ruled that the changes made by 
Rangeland Reform were illegal, the restoration of the regulations to 
the pre-1995 language merely represents housekeeping, as opposed to 
substantive changes in the rules. Both changes must be made in order to 
comply with the courts decisions.
    These changes are also necessary if the BLM intends to enact a 
Reserve Common Allotment Program that is acceptable to ranchers and 
permittees.
    Re-emphasizing Consideration of Economic, Social and Cultural 
Impacts for National Environmental Policy Act (NEPA) Purposes. NEPA 
requires that economic and social impacts be considered in 
environmental impact statements and environmental analyses. Secretary 
Babbitt had essentially eliminated consideration of cultural heritage 
of an area for NEPA purposes. Livestock grazing forms a vital basis for 
the rich cultural heritage of the West. That heritage needs to be 
remembered and considered in any NEPA analysis.
    Changing the Definition of ``Grazing Preference.'' The term 
``grazing preference'' is defined by the Taylor Grazing Act to mean the 
amount of forage to which a landowner is entitled. Grazing preferences 
were adjudicated throughout the West in accordance with the Taylor 
Grazing Act. ``Preference amounts'' are forage in either active use or 
in suspended non-use.
    A major component of Rangeland Reform was the removal of the 
concept of grazing preferences as defined by the Taylor Grazing Act. 
These rules replaced preferences with ``permitted use,'' which is the 
amount allowed to be grazed by the BLM. This was the primary challenge 
that livestock organizations raised to Rangeland Reform in the courts. 
The Supreme Court upheld the government's concept of ``permitted 
use.''It eliminated preference holders' rights to additional forage 
within their preference amounts should it become available. We support 
reinstatement of the definition of ``grazing--preference'' to the way 
it was defined prior to 1995.
    Streamlining the Appeals Process. BLM is also open to suggestions 
for ways to streamline its appeals process.
    BLM is in the process of streamlining the appeals process 
applicable to wildfire management decisions. One proposal is to clarify 
who is eligible to appeal a decision. The proposal would require that 
in order to file an appeal of a wildfire management decision, a person 
has: (1) have a ``legally cognizable interest'' that is a 
particularized interest or injury that is more than a general citizen 
concern about the issue; (2) have commented either orally or in writing 
on the decision; and, (3) only raise issues on appeal that were raised 
in their comments.
    We believe that the same criteria proposed for wildfire management 
issues should also be applicable to livestock grazing issues. We 
supported the changes to the wildfire management appeal regulations, 
and would support a similar proposal for livestock grazing appeals. 
They are fair and reasonable, and conform generally to established 
``standing'' requirements for suing in court.
    We strongly support the elimination of the concept of ``interested 
public'' from the grazing regulations. The current rules allow for 
anyone to interject themselves into discussions between BLM and 
permittee with respect to allotment management and grazing management. 
In no other aspect of business relationships does this occur. We 
support the right of an aggrieved member of the public to appeal a 
grazing decision and to be involved in BLM planning activities, but 
they should not be involved in day-to-day management issues as 
``interested public'' currently are.
    We would also support a provision that would eliminate the ``full 
force and effect'' provisions of Rangeland Reform.
    Examine Whether BLM Should Authorize Temporary Locked Gates on 
Federal Lands to Protect Livestock Operations. This issue needs more 
explanation. The description leads one to believe that BLM could limit 
access to federal lands for livestock permittees. If this is the case, 
we oppose it.
    There is another scenario, however. Barring access to federal lands 
by a private person is currently a prohibited act. Thus, a livestock 
permittee cannot currently close gates to federal land entrances, even 
if a temporary closure would not affect public access. If, however, the 
regulation were changed to allow BLM to authorize a temporary closure 
so the permittee could take some action that was beneficial to the 
ranch operations, it could be something we could support. Comments 
should describe this scenario and state that it should be enacted.
    Requiring a Permittee to Apply for a Renewal. The proposal would 
establish an application process for renewing grazing permits. This is 
a two-edged sword. On the one hand, requiring an application process 
provides some protection under the Administrative Procedures Act from 
adverse actions resulting from failure to comply with NEPA. On the 
other hand, it creates a burden for the producer and provides too much 
discretion in the hands of the agency. Requiring a permittee to apply 
for a permit renewal will also increase the importance of the 
performance review in the renewal process, and could lead to using the 
performance review as an excuse not to renew a permit.
    Categorical Exclusions for Certain Permit Transfers or Renewals. 
BLM policy requires that they complete analyses under NEPA prior to the 
renewal of grazing permits and other permit transfers. This has caused 
a major problem for the BLM because the agency has encountered 
difficulty in completing the required analyses time. This has caused 
problems for permittees, who would be denied the privilege to graze 
through no fault of their own. For the past five years Congress has 
enacted a specific provision in the Interior Appropriations Bill to 
alleviate this situation and allow otherwise expiring permits to be 
renewed, and others to be transferred.
    BLM should consider streamlining its regulations to expedite the 
NEPA process with regard to grazing permits. Grazing permit transfers 
that do not impact the environment but only involve paper changes 
should not be subject to NEPA documentation. Minor permit changes might 
include transfers that do not change the terms and conditions of a 
permit or transfer title from one permittee to another in the middle of 
a permit term. Such actions should not have to be subject to the 
preparation of NEPA documentation. Categorical exclusions were proposed 
for BLM wildfire management decisions. BLM should consider the same 
treatment for grazing permit actions in this rulemaking. Also, BLM 
cannot keep up with the NEPA paperwork that is required to renew or 
transfer permits, and spends more time and money on paperwork as a 
result. Categorical exclusions would remove the permit action backlog, 
and allow BLM to spend more time and money on the ground.
    This rulemaking is an appropriate time to consider rules or policy 
changes that would remove the necessity of requesting Congress every 
year for a ``fix'' for the NEPA dilemma regarding permits.
    Grazing Surcharge. The surcharge imposed for subleasing permits 
should be re-opened and reexamined. The surcharge, added by Rangeland 
Reform in 1995, should be eliminated. The surcharge is a burden for BLM 
to administer, and serves no discernable purpose.
    One of the reasons for the imposition of the surcharge was the 
allegation that permittees were sub-leasing their grazing allotments at 
a significant profit. As alleged, they would receive upwards of $10 per 
Animal Unit Month for the same forage that they paid the BLM $1.35. We 
commented at the time that we do not condone the practice of taking 
advantage of the federal lands in that manner.
    But we also mentioned that there were good reasons for charging 
more than the federal grazing fee. Sub-lessors provide more services 
for their sub-lessees than are provided by the BLM in grazing permits. 
Each of those services costs the sub-lessor money. Studies have shown 
that when the costs of these additional services are balanced out, the 
relative costs are comparable.
    If this is still a concern, we offer this possible solution instead 
of the surcharge. A sublease would list all the items and the costs of 
the services provided in the sublease, including the grazing fee and 
any additional service provided beyond those provided by the permit.
    Make BLM Procedures More Compatible With the Endangered Species 
Act. The Endangered Species Act (ESA) continues to make it more 
difficult for permittees to graze livestock in accordance with the 
terms of their permits. While ESA jurisdiction resides with other 
federal agencies, there are changes BLM can make to its regulations to 
ease ESA burdens on permittees.

          a. Bring permittees in as part of any section 7 ESA 
        consultation involving their allotments. The Endangered Species 
        Act requires that any time an action is ``authorized, funded or 
        carried out'' by a federal agency, it must consult with the 
        Fish & Wildlife Service or National Marine Fisheries Service 
        anytime the action ``may affect'' a listed species. In most 
        cases, the party most affected by the outcome of any 
        consultation is a private entity holding or applying for a 
        federal permit, such as a grazing permit. Yet, current practice 
        does not allow the private party to participate in the 
        consultation to any meaningful extent. Full private 
        participation would assist both the BLM and the Fish & Wildlife 
        Service or National Marine Fisheries Service (the Services) to 
        arrive at a more informed and meaningful decision. The Services 
        rules are silent on third party participation. BLM rules could 
        be amended to include private applicants or permit holders as 
        full parties with BLM in the process.
          b. Notify permittees of any ``citizen suits'' under the ESA, 
        Clean Water Act or other environmental laws. Another problem 
        that we have encountered with the ESA is citizen suits that 
        challenge livestock grazing on BLM lands are most often filed 
        against the BLM and not the private permittees. Although the 
        permittees are the parties that are most adversely impacted by 
        such suits, they are often not aware of such cases, and not 
        made aware of them. Injunctions may be obtained, or cases 
        settled, without any opportunity for the permittees to 
        participate. This issue can be corrected simply by BLM 
        communicating with permittees that a citizen suit has been 
        filed or that a Notice of Intent to Sue has been filed that may 
        affect their allotments or grazing privileges. This will allow 
        the permittees to take whatever action they deem appropriate to 
        protect their interests. Notification to a grazing association 
        (where they exist) could be construed as notice to all of the 
        permittees. A provision added to the BLM regulations requiring 
        such notification would address this problem.
Monitoring
    The definition of ``monitoring'' should read as follows: ``The 
orderly collection, analysis, and interpretation of resource data to 
evaluate progress toward meeting management objectives. This process 
must be conducted over time in order to determine whether management 
objectives are being met.''
    In addition to establishing monitoring studies, BLM should continue 
the periodic evaluation of rangeland resources on existing monitoring 
locations using the same procedures to ensure continuity over time and 
ensure that all monitoring data collected on BLM lands remains 
available in allotment files for use in evaluation trends in resource 
conditions over time.
    The Grazing Regulations should also contain a separate section 
titled ``Monitoring''. The direction in this section should include the 
following language:
    BLM field office or district managers shall develop, in 
consultation with allotment owners and local land grant universities, 
resource management objectives, including but not limited to wildlife, 
threatened and endangered species, and recreation impacts, at the 
allotment level. They should develop both short-term and long-term 
monitoring programs based on current and historical quantitative 
vegetative data that have the technical ability to determine if 
allotment resource objectives are being met. At the discretion of the 
Grazing Board, findings may be subject to peer review. It is the intent 
of this section that, to the extent feasible, field level data and 
documented observations collected during this monitoring program be 
collected at the same time and location with participation by both the 
BLM and the allotment owner, and that both parties be responsible for 
the interpretation of this data. The action office will prepare an 
annual report on the monitoring activities under its jurisdiction and 
will report the status of progress toward meeting allotment/lease 
objectives as they are determined by the BLM and permittee/lessee 
within their respective field offices or districts.
    This section should also require periodic reports be developed in 
consultation with the permittee, showing how the monitoring data and 
documented field observations are tracking, and whether allotment level 
resource objectives are being accomplished.
Payment of Fees
    Farm Bureau recommends that, for purposes of billing AUM the 
conversion ration for sheep should be changed from 5:1 to 7:1.
Full Force and Effect Decisions and Petitions for Stay of Decisions
    We recommend that Sec. 4160.3, Final Decisions, be revised as 
follows:
    ``A BLM decision timely appealed by a grazing permittee or lessee 
shall not be effective pending a final agency decision following a 
hearing on the record. During the pendency of the appeal, the terms and 
conditions of the existing or prior permit shall be in effect.
    ``When the authorized officer determines that the current 
authorized grazing use poses an imminent likelihood of irreparable 
resource damage, after consultation with, or a reasonable attempt to 
consult with, permittees or lessees, the state with responsibility over 
lands in the area and other land owners, the authorized officer may 
declare an emergency and place the decision in effect prior to the 
hearing or final administrative decision. The decision will be 
effective for the 30-day period provided for filing an appeal.
    A declaration of emergency by the authorized officer must show 
sufficient justification based on the following standards:

          (i) the relative harm to the parties if the decision is 
        effective pending appeal;
          (ii) The likelihood of BLM's success on the merits;
          (iii) The likelihood of immediate and irreparable harm if the 
        decision is not effective pending appeal; and
          (iv) whether the public interest favors placing the decision 
        in effect pending appeal.

    A review of BLM grazing decisions over the past ten years shows 
that very little actual data from state-of-the-art rangeland studies 
were the basis for grazing decisions. In addition, the Interior Board 
of Land Appeals has incorrectly applied the burden of proof to the 
appellant instead of BLM, as is required by the Administrative 
Procedures Act (APA). If decisions are not suspended, the permittee/
lessee could well be placed out of business pending final disposition.
Burden of Proof
    Farm Bureau requests that Sec. 4160.4 be amended to include the 
following language:
    ``During the process of adjudication of the appeal, the burden of 
proof shall be on the proponent of the rule or order, the BLM, and the 
standard of proof shall be a preponderance of evidence showing that 
BLM's decision is supported by scientifically-based facts.''
    In 5 U.S.C. 556, of the APA, it states, in part, that the standard 
of proof is a preponderance of the evidence and the burden is on the 
proponent of the rule or order. The BLM grazing regulations have an 
obligation to reflect the letter and intent of U.S. statutes that 
govern their activities. The BLM is subject to ALL of the direction in 
the APA, including this subject. This change will result in fewer and 
higher quality decisions.
    The APA provides uniform rules regarding adjudications before 
administrative agencies and review of final agency actions. Regarding 
the former, the APA governs all adjudications ``required by statute to 
be determined on the record after opportunity for an agency hearing'' 5 
U.S.C. Sec. 554(a). Section 9 of the Taylor Grazing Act (TGA) requires 
that the Secretary of the Interior provide ``rules and regulations for 
local hearings on appeals from the decision of the administrative 
officer in charge'' 43 U.S.C. Sec. 315(h). This provision means that 
all ``matters which arise in the administration of grazing districts'' 
are ``required by statute to be determined on the record,'' triggering 
all APA requirements for formal adjudications. See LaRue v. Udall, 324 
F.2d 428, 432 (D.C. Cir. 1963); Ralph and Beverly Eason, 127 IBLA 259, 
261 (1993); Ericsson, 98 IBLA 258, 263 (1987).
    With respect to formal adjudications, Section 7(c) of the APA 
provides that ``the proponent of a rule or order has the burden of 
proof. . . . 5 U.S.C. Sec. 556(d) (1988). The U.S. Supreme Court has 
held that Sec. 7(c) requires the proponent of the rule or order to meet 
its burden by a preponderance of the evidence. Steadman v. Securities & 
Exchange Commission, 101 S.Ct. 999 (1981). In passing the APA, 
``Congress was primarily concerned with the elimination of agency 
decision making premised on evidence which was of poor quality-
irrelevant, immaterial, unreliable, and nonprobative--and of 
insufficient quantity--less than a preponderance.'' Id. at 1008.
    It stands to reason, that since all BLM decisions pertaining to 
``matters which arise in the administration of grazing districts'' are 
subject to the APA, and that the APA requires the ``proponent of a rule 
or order'' to have the burden of proof by a preponderance, then any 
time BLM affirmatively issues a decision impacting established grazing 
rights, they would have to prove, on appeal, any such decision by a 
preponderance of the evidence. The IBLA has, in fact, applied this 
burden of proof to appeals involving grazing trespass alleged by BLM. 
See Ericsson at 255, Wayne D. Klump, 130 IBLA 119,130 (1994); John L. 
Falen, 143 IBLA 1 (1998). However, the IBLA has failed to apply the 
appropriate standard for the remainder of ``matters which arise in the 
administration of grazing districts,'' requiring instead that an 
aggrieved rancher bear the burden to prove BLM's fault by a 
preponderance, even when BLM is clearly the ``proponent of the rule or 
order.''
    Any doubt regarding the correct standard of proof applicable in an 
administrative proceeding subject to the APA was settled by the Supreme 
Court in Steadman. The court found that the decision must be in 
accordance with the weight of the evidence. The court further found 
that Sec. 7(c) of 5 U.S.C. 556(d) was intended to establish a standard 
of proof and that the standard adopted is the traditional-
preponderance-of-the-evidence standard.
Conflicting Applications
    Section 4130.1-2 conveys the criteria an action office shall use to 
determine who among competing applicants for federal livestock AVM's 
would receive these AVM's. Farm Bureau requests that item (d) in this 
section that now reads, ``public ingress or egress across privately 
owned or controlled land to public land,'' should be removed from these 
regulations as criteria for consideration by BLM in the allocation of 
federal AVM's.
    The subject of whether a person currently, or in the future, will 
grant public ingress or egress across his or her private lands is in no 
way related to whether the applicant would be the best steward of the 
use of federal forage. It should not be a criterion in determining who 
might be entitled to a grazing permit.
    Farm Bureau greatly appreciates BLM efforts to make its rules 
relating to livestock grazing more workable. We hope that you will 
consider these suggestions. We look forward to working with the agency 
to develop a set of regulations that works better for everyone.
            Sincerely,
                                        Richard W. Newpher,
                                 Executive Director, Public Policy.


</pre></body></html>
